App. 1
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION EIGHT
MOUNTAINLANDS
CONSERVANCY, LLC, et al.,
Plaintiffs and Appellants,
v.
CALIFORNIA COASTAL
COMMISSION,

B287079
(Los Angeles County
Super. Ct. No.
BS149063)
(Filed Apr. 1, 2020)

Defendant and Respondent.
COUNTY OF LOS ANGELES,
Real Party in Interest and
Respondent.
APPEAL from a judgment of the Superior Court
of Los Angeles County, James C. Chalfant, Judge. Afﬁrmed.
Bradley & Gmelich, Barry A. Bradley, Lena J.
Marderosian and Dawn Cushman for Plaintiffs and
Appellants.
Damien M. Schiff for Paciﬁc Legal Foundation as
Amicus Curiae on behalf of Plaintiffs and Appellants.

App. 2
Xavier Becerra, Attorney General, Daniel A. Olivas,
Assistant Attorney General, Christina Bull Arndt, Supervising Deputy Attorney General, and David Edsall,
Jr., Deputy Attorney General, for Defendant and Respondent.
No appearance for Real Party in Interest and Respondent.
---------------------------------------------------------------------------------------------------------

SUMMARY
This is an appeal from a decision of the California
Coastal Commission certifying a local coastal program
for the Santa Monica Mountains that prohibits any new
vineyards in the Santa Monica Mountains coastal zone.
Three limited liability companies that own land
subject to the local coastal program sought a writ of
mandate to vacate the certiﬁcation, challenging the
commission’s decision on both procedural and substantive grounds. The trial court denied the writ petition.
We afﬁrm the judgment.
LEGAL AND FACTUAL BACKGROUND
1. The Legal Background: General Principles
The California Coastal Act (the Coastal Act) was
passed in 1976. (Pub. Resources Code, § 30000 et seq.)1
1

Unless otherwise speciﬁed, further statutory references are
to the Public Resources Code.

App. 3
It is “a comprehensive scheme to govern land use planning for the entire coastal zone of California.” (Yost v.
Thomas (1984) 36 Cal.3d 561, 565 (Yost).) The Coastal
Act requires “all local governments lying in whole or in
part within the coastal zone . . . to prepare and submit
to the Commission a local coastal plan.” (Yost, at p. 566,
citing § 30500, subd. (a).)
A local coastal program (or LCP) is deﬁned as “a
local government’s (a) land use plans, (b) zoning ordinances, (c) zoning district maps, and (d) within sensitive coastal resources areas, other implementing
actions. . . .” (§ 30108.6.) “The precise content of each
local coastal program shall be determined by the local
government . . . in full consultation with the commission and with full public participation.” (§ 30500, subd.
(c).)
The local coastal program may be submitted to
the commission all at once or in two phases. The two
phases are, first, the land use plan (or LUP), and
second, the zoning ordinances, zoning maps and any
other implementing actions (§ 30511). (The parties refer to these zoning ordinances and other implementing
actions as a “local implementation plan” or LIP.)
The commission will certify a land use plan, or any
amendments to it, if the land use plan “meets the requirements of, and is in conformity with, the policies of
Chapter 3 (commencing with Section 30200).” (§ 30512,
subd. (c); see Yost, supra, 36 Cal.3d at p. 566.) These

App. 4
are referred to as “chapter 3 policies.” They include policies on land resources (§§ 30240-30244), a category
that includes environmentally sensitive habitat areas
(§ 30240) and agricultural lands. The latter policies include a section on prime agricultural land (§ 30241)
and a section on all other lands suitable for agricultural use (§ 30242).2 Conﬂicts between one or more policies of the Coastal Act are to be resolved “in a manner
which on balance is the most protective of signiﬁcant
coastal resources.” (§ 30007.5.)
The commission’s review of a local government’s
land use plan is expressly limited to its determination
that the plan “does, or does not, conform with” the requirements of chapter 3. (§ 30512.2, subd. (a).) As for
the second-phase implementing actions (the local implementation plan), “[t]he Commission may only reject
zoning ordinances on the grounds that they do not conform, or are inadequate to carry out the provisions of
the certiﬁed land use plan.” (Yost, supra, 36 Cal.3d at
p. 566, citing § 30513.)
“A certiﬁed local coastal program and all local implementing ordinances, regulations, and other actions
may be amended by a local government, but no such
amendment shall take effect until it has been certiﬁed
by the commission.” (§ 30514, subd. (a).)

2

Other chapter 3 policies include policies on public access,
recreation, marine environment, development, and industrial
development. (§§ 30210-30236, 30250-30265.5.)

App. 5
2. The Factual and Procedural Background
Los Angeles County (the county) has divided its
coastal zone into three areas. One of these is the Santa
Monica Mountains.
In 1986, the commission certiﬁed the land use
plan portion of a proposed local coastal program for
the Santa Monica Mountains. (This is referred to as
the 1986 Malibu land use plan.) No zoning ordinances
or other implementing actions were adopted or certiﬁed, so the county did not have a complete certiﬁed local coastal program for the Santa Monica Mountains.
(This meant that the commission retained jurisdiction
over land use in the Santa Monica Mountains, and applicants for any development project in that coastal
zone had to obtain permits from the commission rather
than from the county.)
In 2007, the county’s regional planning commission recommended approval of a proposed local coastal
program that included an “updated land use plan . . .
to replace the Malibu LUP” as well as a proposed local
implementation plan. The Board of Supervisors (the
board) indicated its intent to approve the proposed program with modiﬁcations, but the commission never
considered or certiﬁed it.
In 2012, the commission began to encourage certiﬁcation of uncertiﬁed areas and to work with local
agencies to update existing coastal plans. After negotiations between commission staff and the county, clariﬁcations and amendments were made to the 2007
proposed local coastal program.

App. 6
a. The county’s proposed local coastal program
On January 2, 2014, the county gave notice the
board would consider a proposed local coastal program
for the Santa Monica Mountains at a public hearing on
February 11, 2014.
The county’s proposed program included a land
use plan replacing the 1986 Malibu land use plan, and
an implementation plan with amendments to the
zoning code and a zone change ordinance. The county
summarized the major differences between the 1986
Malibu land use plan and “the current amendment to
the land use plan,” and stated that “this amendment
will replace the 1986 LUP in its entirety.”
Among the signiﬁcant differences was that “[a]gricultural uses are proposed for restriction in the proposed [local coastal program].” For reasons the county
enumerated, “the County has elected to respect the
vineyards and crop areas already in existence, and to
prohibit further establishment of such uses in the future.” Another signiﬁcant difference involved critical
habitat; in the 1986 plan, “there was a far smaller designation of critical habitat than is now presented as
H1.” (“H1” is the designation for “[t]he most sensitive
and geographically constrained habitats.”)
The board held a public hearing, and on February
18, 2014, approved a resolution stating its intent to approve the proposed program and submit it to the commission.

App. 7
b. The commission staff ’s March 27 report
On March 27, 2014, the commission staff issued a
report on the county’s proposed land use plan amendment. The staff recommended denial as submitted, but
recommended approval subject to 60 suggested modiﬁcations. Most were clariﬁcations and reﬁnements, but
several modiﬁcations were suggested as necessary to
ensure the land use plan was in conformity with chapter 3 policies.
As relevant here, in modiﬁcation No. 27, the staff
clariﬁed the provision prohibiting new crop, orchard,
vineyard, and other crop-based nonlivestock agricultural uses, adding that existing agricultural uses
“may not be expanded.” The staff also suggested a new
policy (modiﬁcation No. 28) stating that “[e]xisting, legally-established, economically-viable crop-based agricultural uses on lands suitable for agricultural use
shall not be converted to non-agricultural use” unless
certain requirements were met. (This modiﬁcation
tracked a policy stated in section 30242 of the Coastal
Act, described post.) The staff also suggested (modiﬁcation No. 29) deleting a provision that limited “existing commercial or ‘hobby’ agricultural uses such as
vineyards, orchards, and ﬁeld or row crops,” but again
speciﬁed that existing agricultural uses may not be expanded.
The commission staff ’s report reviewed sections
30241 and 30242 of the Coastal Act (the policies on
agricultural land). Section 30241 speciﬁes that the
“maximum amount of prime agricultural land shall be

App. 8
maintained in agricultural production to assure the
protection of the areas’ agricultural economy, and conﬂicts shall be minimized between agricultural and urban land uses” through several stated policies. Section
30242 governs other agricultural land, and states that
lands “suitable for agricultural use shall not be converted to nonagricultural uses unless (1) continued or
renewed agricultural use is not feasible, or (2) such
conversion would preserve prime agricultural land or
concentrate development consistent with [other speciﬁed policies].”
The staff report concluded section 30241’s mandate to maintain the maximum amount of prime agricultural land in agricultural production did not apply.
This was because the “limited lands within the plan
area that contain prime agricultural soils are either
State or Federal public parkland or are developed with
existing uses and not in agricultural production.”3
Further, “other lands in existing agricultural use
and suitable for agricultural use are very limited in
area. [A] large percentage of the plan area consist[s] of
very steep slopes and poor soils, which are unsuitable
for agriculture. . . . The steep slopes, poor soils, limited
3

The staff report explains in detail the meaning of “prime
agricultural land” under the Coastal Act. The deﬁnition (§ 30113)
includes four categories described in Government Code section
51201, one of which is “[l]and planted with fruit- or nut-bearing
trees, vines, bushes, or crops which have a nonbearing period of
less than ﬁve years” and which will normally return “not less than
two hundred dollars ($200) per acre” on an annual basis. (Gov.
Code, § 51201, subd. (c)(4).)

App. 9
water availability, and other constraints within the
Santa Monica Mountains make . . . the cultivation of
vineyards and other crops either infeasible, or extremely difﬁcult and costly.” In addition, “[a]ctivities
such as vineyards or other intensive crop cultivation
can have signiﬁcant adverse impacts on the biological
integrity of the surrounding mountain environment
and receiving waterbodies.” The staff described a “conﬂuence of factors—including steep slopes, poor soils,
scenic considerations, sensitive watersheds, abundant
[environmentally sensitive habitat areas], and lot size
limitations—[t]hat render the vast majority of the land
in the Santa Monica Mountains unsuitable for agricultural use.” Consequently, “the prohibition on the conversion of lands suitable for agricultural use to nonagricultural use” in section 30242 “does not apply in
most cases in this unique plan area.”
The report stated that the only areas in existing
agricultural production were “very limited vineyard
areas, encompassing a very small percentage of the
plan area.” The “very limited areas where agriculture
is possible” were “the one or two areas that are already
in active agricultural production,” and these were to be
protected by modiﬁcation No. 28. These two vineyard
areas encompassed approximately 50 acres. “Otherwise, the remaining vineyards in the plan area are a
very limited number of very small, ‘hobby’ vineyard
plots (less than 2 acres) that are accessory to singlefamily residences,” and “these areas are very limited
and often not commercially viable.”

App. 10
The staff report also stated that the “protection
and preservation of the environmentally sensitive habitats in the Santa Monica Mountains is the most signiﬁcant issue in this LUP.” The report described the
plan’s “biological resource protection approach” and
the three categories of habitat designated in the plan
(H1, H2 and H3). “H1 and H2 habitats are collectively
described as Sensitive Environmental Resource Areas
(SERA’s).” As noted earlier, the designation “H1” is for
the “most sensitive and geographically constrained
habitats.” “H2 habitat consists of areas of high biological signiﬁcance, rarity, and sensitivity that are important for the ecological vitality and diversity of the
Santa Monica Mountains Mediterranean Ecosystem.”
“H3 habitats are developed or legally disturbed areas
that may retain some residual habitat values, but are
not considered to be ESHA [environmentally sensitive
habitat areas].”4 More than 87 percent of the 50,000
acres in the land use plan is designated either H1 or
H2.
c. Public comments
On April 7, 2014, plaintiffs—Mountainlands Conservancy, LLC; Third District Parklands, LLC; and
Third District Meadowlands, LLC – submitted their
comments. They contended the proposed land use plan,
4

The Coastal Act deﬁnes “ ‘[e]nvironmentally sensitive
area’ ” as “any area in which plant or animal life or their habitats
are either rare or especially valuable because of their special nature or role in an ecosystem and which could be easily disturbed
or degraded by human activities and developments.” (§ 30107.5.)

App. 11
even with the staff ’s proposed modiﬁcations, “raises
substantial issues as to conformity with” chapter 3 policies, in particular the “policy of preserving land in the
Coastal Zone for agriculture.” Plaintiffs asked the
commission either to decline certiﬁcation or to “set an
additional hearing on all matters that raise such ‘substantial issues.’ ” (§ 30512 requires an additional hearing under speciﬁed circumstances, as we discuss post.)
Speciﬁcally, plaintiffs ﬁrst challenged the staff ’s
ﬁnding that the only prime agricultural soils were located in public parkland areas or developed with existing uses. Plaintiffs said they were “aware of at least
one property within the Coastal Zone containing a
deed restriction indicating the presence of ‘prime agricultural land’ on that property.” (Plaintiffs did not
identify or document this property.)
Plaintiffs also challenged the staff ’s conclusion
that the vast majority of land in the Santa Monica
Mountains was unsuitable for agricultural use. Plaintiffs contended these ﬁndings were “purely speculative”; and the report contained “no information on the
amount of land . . . that is currently under cultivation,”
and no persuasive explanation of why there is no further land suitable for agriculture.
Plaintiffs attached an expert report from Daryl
Koutnik on agricultural use opportunities in the Santa
Monica Mountains. Mr. Koutnik, who stated he was a
principal in “Biological and Environmental Compliance,” provided a list of soil types in the Santa Monica
Mountains suitable for agriculture. He concluded the

App. 12
staff report’s dismissal of agricultural uses “based
solely on soils being too rocky and steeply sloping . . .
does not correspond to current successful agricultural
operations in the area.” With modern practices, various
crops “may be successful on a variety of soil types and
slope steepness,” and “[f ]arming and engineering techniques are available to address water quality and erosional concerns.” The limitation of agricultural uses to
only those designated by the Department of Conservation based on soil types and recent or current operation
“while prohibiting such use for properties that have
been historical[ly] used for such practices is a substantial change from the current zoning designations that
allow these agricultural activities.”
Plaintiffs submitted a soil survey of the Santa
Monica Mountains National Recreation Area (as well
as other soil surveys, soil maps and related materials).
The Santa Monica Mountains survey stated that
“[a]bout 3,470 acres, or less than 2 percent of the survey area, would meet the requirements for prime farmland if an adequate and dependable supply of
irrigation water were available.”
Plaintiffs also submitted an opinion from geologist
Scott Hogrefe, to refute the staff ’s assertion that the
Santa Monica Mountains, because of steep topography,
poor soils, limited water availability, and constrained
access, have never been an area particularly conducive
for agriculture. Mr. Hogrefe, who has been a consulting
geologist on many properties in the area during the
past 30 years, opined that the “vast majority of sites

App. 13
across the Santa Monica Mountains do contain good to
excellent soil conditions for agricultural purposes.”
d. The commission staff ’s April 9 addendum
On April 9, 2014, the commission staff issued an
addendum to its March 27 report, one day in advance
of the April 10 public hearing. Among other matters,
the April 9 addendum responded to concerns raised
by the public, including by plaintiffs, about the proposed prohibition of all new crop-based agriculture.
The addendum stated the commission staff had conferred with county staff and agreed on some proposed
changes, including its recommendations on modiﬁcations Nos. 27 and 29, “to temper the wholesale prohibition on new crop-based agriculture that appears in the
County’s original proposal.”
The trial court aptly summarized the recommended changes. “In light of the comments received,”
commission staff recommended a modiﬁcation “to allow new agricultural uses that met the following criteria: (1) the new agricultural uses are limited to
speciﬁed areas on natural slopes of 3:1 or less steep, or
areas currently in legal agricultural use; (2) new vineyards are prohibited; and (3) organic or biodynamic
farming practices are followed.” The commission staff
“removed the prohibition on expanding agricultural
uses, and recommended that existing legal agricultural uses may be expanded consistent with” the three
criteria just mentioned. The commission staff “recognized that the continuation of agricultural uses” is

App. 14
encouraged under the Coastal Act if those uses “can be
accomplished consistent with other Chapter 3 policies.”
The commission staff ’s new ﬁndings “justiﬁed the
allowance for new agriculture because ‘small-scale
crop-based agricultural operations (with the exceptions
of vineyards) can avoid adverse impact to biological resources and water quality,’ if ‘organic and biodynamic
farming practices are followed.’ ” The staff “explained
that ‘organic and biodynamic farming practices are required to prevent the use of pesticides, herbicides, and
fertilizers, which can adversely impact the biological
productivity of coastal waters and human health.’ ”
New vineyards “would remain prohibited due to a
number of identiﬁed adverse impacts attributed speciﬁcally to those operations, including increased erosion from removal of all vegetation, use of pesticides,
large amounts of water required, their invasive nature,
and their adverse impact to scenic views.”
e. Plaintiffs’ response
Plaintiffs responded to the April 9 addendum on
April 10, the date of the public hearing.
First, plaintiffs contended that allowing affected
parties less than 24 hours to respond to the proposed
revisions would violate section 30503. (§ 30503 requires the public to be provided with “maximum opportunities to participate” during the preparation,
approval, certiﬁcation, and amendment of any local
coastal program.)

App. 15
Second, plaintiffs argued that even as revised, the
proposed land use plan “still raises substantial issues
as to its compliance” with chapter 3 policies, so that the
commission “must set an additional hearing to discuss
those issues.” Plaintiffs cited three “substantial issues.”
Plaintiffs said the revised proposal “would still exclude new agriculture from the vast majority of land”
in the Santa Monica Mountains coastal zone. This was
because new agriculture was allowed, with two limited
exceptions, “only in certain H3 habitat areas,” and “the
bulk of the area in the Coastal Zone is designated H1
or H2.” Plaintiffs cited Dr. Hogrefe’s report that the
vast majority of land was suitable for agricultural use.
Plaintiffs asserted that “[t]o the extent that land that
had potentially been available for agricultural use
would now be unavailable due to its classiﬁcation as
H1 or H2 habitat, the proposed [land use plan] as revised by the Staff ’s Addendum conﬂicts with the policy
expressed in Section 30242 of the Coastal Act against
conversion of land suitable for agricultural use to nonagricultural land.”
Plaintiffs also challenged the staff ’s justiﬁcation
for the prohibition of new vineyards, contending the
staff ’s statements (reproduced in the next footnote)5
5

"Vineyards require the removal of all native vegetation and
the soils must be scariﬁed which results in increased erosion and
sedimentation of streams which adversely impact riparian areas
and water quality. In addition, vineyards typically require the
application of pesticides that can also adversely impact coast
streams and riparian habitat. Furthermore, vineyards require

App. 16
were “newly presented . . . without substantiation and
without the benefit of public comment.” (Plaintiffs
similarly challenged the limitation of additional agriculture solely to organic and biodynamic farming
methods, but they do not pursue this point on appeal.)
In addition, plaintiffs submitted two documents
for the record. The one relevant to this appeal is a June
2012 study prepared by researchers at the UCLA Institute of the Environment & Sustainability, entitled
“Potential Extent of Vineyard Development in the
Santa Monica Mountain National Recreation Area
[SMMNRA]” (the UCLA study). The UCLA study
sought to identify “areas where vineyard development
could potentially occur given current zoning and land
use regulations,” and stated that, of the 48,394 acres in
the study site, 62.5 percent had favorable physical
conditions and appropriate zoning for development. In
addition to potential vineyard development, the report identified existing vineyards in the area (38, some
with slopes greater than 33 percent). These included
“large commercial vineyards, as well as small hobby
vineyards.” (We will describe the UCLA study further
in connection with our legal discussion of plaintiffs’
substantial evidence claim.)

large amounts of water that can require agricultural wells that
can draw down ground water and adversely impact streams and
seeps and their associated habitats. Moreover, County staff asserts that grapevines can be an invasive type of vegetation in riparian areas. Finally, given that grapevines must be supported
by trellises in a linear, unnatural pattern, vineyards can adversely impact scenic views.”

App. 17
f. The April 10 hearing and subsequent proceedings
After presentations by county and commission
staff, the commission heard from many members of the
public. Counsel for plaintiffs argued the commission
had a duty to determine whether there were any substantial issues concerning the compliance of the land
use plan with chapter 3 policies, and that there were
such issues, “especially with compliance with section
30242.”
Counsel also expressed agreement with much of
the position presented by a representative of the California Coalition of Coastal Farmers (Mr. Don Schmitz),
who spoke at some length about prime agricultural
land in the Santa Monica Mountains and against the
restriction on vineyards. Mr. Schmitz reported that the
entire Santa Monica Mountains area had been approved by federal authorities as a ﬁne wine growing
region (designated an AVA or American Viticultural
Area).
The commission voted unanimously to approve
the land use plan with the modiﬁcations suggested by
the commission staff.
Three months later, after a staff report, objections
from plaintiffs, and a public hearing, the commission
approved the county’s proposed local implementation
plan, with modiﬁcations. On August 26, 2014, the
board issued a resolution adopting the local coastal
program, consisting of the land use plan and the local
implementation plan, both as modiﬁed by the

App. 18
commission. Final commission certiﬁcation took place
at its meeting on October 10, 2014.
g. The writ petition proceedings
In June 2014, after the commission’s approval of
the land use plan, plaintiffs ﬁled a petition for writ of
mandate. The amended petition ﬁled December 9,
2014, is the operative pleading. Plaintiffs alleged the
commission did not proceed in the manner required by
law, because it did not make a “substantial issues” determination under section 30512. Even with the modiﬁcations in the April 9 addendum, they alleged, the
proposed land use plan raised substantial issues of
conformity with sections 30241 and 30242. They
claimed the plan “converted lands suitable for agricultural use to non-agricultural use in violation of Section
30242.” They asserted that all lands of greater than 3:1
slope were converted to nonagricultural use, as were
“all lands in the 87.9% of the Coastal Zone designated
as H1 or H2,” with limited exceptions. Plaintiffs alleged the commission was required to conduct a further hearing on those issues.
Plaintiffs also alleged that, by considering the addendum made available to the public the day before
the hearing, the commission denied them a meaningful
opportunity to address the ﬁndings that “new vineyards deserved to be separated from other forms of
agriculture for categorical prohibition.”
Plaintiffs further alleged the commission’s ﬁndings were not supported by substantial evidence,

App. 19
including insufﬁcient evidence to justify a categorical
prohibition of vineyards as opposed to other types of
agriculture.
The trial court denied plaintiffs’ petition, issuing
two comprehensive rulings.
In its ﬁrst ruling, the court rejected plaintiffs’
claim that the April 9 addendum was required to be
distributed at least seven days before the public hearing, and ruled that even if there were such a requirement, plaintiffs could not show they were prejudiced
by the addendum’s timing. The court further concluded
the commission was not required under section 30512
to hold a separate hearing on the matters claimed by
plaintiffs to raise “substantial issues.” The proposed
land use plan was an amendment of the 1986 Malibu
plan, so that the amendment procedure under section
30514 applied, not section 30512. In addition, the court
found the commission correctly concluded that section
30241—requiring that the maximum amount of prime
agricultural land be maintained in production—did
not apply. And, the court found substantial evidence
supported the commission’s ﬁndings “that a large percentage of the plan area is not suitable for agricultural
use and not subject to section 30242’s restriction on the
conversion of lands suitable for agricultural use.”
The trial court continued the hearing and ordered
further brieﬁng, limited to the question whether the
total ban on vineyards was supported by substantial
evidence. Along with their supplemental brief, plaintiffs ﬁled a motion to augment the record with

App. 20
documents relating to the federal designation of the
Santa Monica Mountains coastal region as an American Viticultural Area. At the continued hearing, the
court denied the motion as unauthorized and untimely.
In its second ruling, the court described and analyzed the evidence in great detail, concluding there
was substantial evidence that vineyards are harmful
to the Santa Monica Mountains ecology “because they
require clearing and scariﬁcation, increase erosion and
sedimentation, require pesticide use, and constitute
an invasive monoculture.” Further, “[o]f these harms,
many are inherent to the nature of viticulture, and
there is no evidence that they could be mitigated.”
Judgment was entered on November 20, 2017, and
this appeal followed.
DISCUSSION
With minor variations, plaintiffs make the same
claims they made to the trial court: that section 30512
applied and mandated a further hearing; that the commission failed to enforce the agricultural protection
policies of the Coastal Act; that the hearing was unfair
and denied due process because the April 9 addendum
was issued the day before the hearing; and that no substantial evidence supported the decision “to isolate
vineyards for prohibition.” None of these contentions
has merit.

App. 21
1. The Standard of Review
Under Code of Civil Procedure section 1094.5, the
trial court reviews the commission’s decision to determine whether the commission “proceeded without, or
in excess of, jurisdiction; whether there was a fair trial;
and whether there was any prejudicial abuse of discretion. Abuse of discretion is established if the [commission] has not proceeded in the manner required by law,
the order or decision is not supported by the ﬁndings,
or the ﬁndings are not supported by the evidence.” (Id.,
subd. (b); see Ross v. California Coastal Com. (2011)
199 Cal.App.4th 900, 921 (Ross).) “The [commission’s]
ﬁndings and actions are presumed to be supported by
substantial evidence,” and plaintiffs have the burden
of demonstrating otherwise. (Ross, at p. 921.)
The trial court considers all relevant evidence, but
does not substitute its own ﬁndings and inferences for
those of the commission. (Ross, supra, 199 Cal.App.4th
at pp. 921-922.) The trial court may reverse the commission’s decision “ ‘only if, based on the evidence before it, a reasonable person could not have reached
the conclusion reached by [the commission].’ ” (Id. at
p. 922.) “Our scope of review is identical to that of the
trial court. [Citations.] We, like the trial court, examine
all relevant materials in the entire administrative record to determine whether the [commission’s] decision
is supported by substantial evidence.” (Ibid.)
When interpreting a statute, our review is de novo,
but the commission’s interpretation of its governing

App. 22
statutes “is entitled to great weight.” (Ross, supra, 199
Cal.App.4th at p. 922.)
2. Section 30512 Versus Section 30514
Plaintiffs contend the commission was required to
proceed under section 30512, rather than under section 30514 (governing amendments). As already noted,
section 30512 requires the commission to determine,
after a public hearing, whether the land use plan of a
proposed local coastal program “raises no substantial
issue as to conformity with” chapter 3 policies. If the
plan does raise a substantial issue, the commission
must identify the issues and hold at least one public
hearing on the matters identiﬁed.6
The commission, on the other hand, says that it
properly proceeded under section 30514, which has no
6

Speciﬁcally, section 30512 requires the commission, after
submission of the land use plan and after public hearing, to “either certify or refuse certiﬁcation, in whole or in part,” under speciﬁed procedures. (Id., subd. (a).) The commission must determine,
after the public hearing, “whether the land use plan, or a portion
thereof applicable to an identiﬁable geographic area, raises no
substantial issue as to conformity with the policies of Chapter 3.”
(Id., subd. (a)(1).) If the commission determines no substantial issue is raised, the land use plan “shall be deemed certiﬁed as submitted.” (Ibid.) If the commission determines that one or more
portions of a land use plan raise no substantial issue, the remainder of the land use plan “shall be deemed to raise one or more
substantial issues,” and the commission must identify each substantial issue for each geographic area. (§ 30512, subd. (a)(2).)
The commission must hold at least one public hearing “on the
matter or matters that have been identiﬁed as substantial issues.” (Id., subd. (a)(3).)

App. 23
such requirement. Under section 30514, “[a]ny proposed amendments to a certiﬁed local coastal program”
must be submitted and processed under sections 30512
and 30513,7 “except that the commission shall make
no determination as to whether a proposed amendment raises a substantial issue as to conformity” with
chapter 3 policies “as would otherwise be required by
Section 30512.” (§ 30514, subd. (b), italics added.)
There is no limitation on the number of amendments
included in a submittal. (Ibid.) And the scope of section
30514 is broad: “A certiﬁed local coastal program and
all local implementing ordinances, regulations, and
other actions may be amended. . . .” (§ 30514, subd.
(a).)
The record shows the county identiﬁed its February 14, 2014 submission to the commission with a caption that begins with the words, “formal submittal of
amendment to the 1986 land use plan.” The submission included a “summary of the major differences
between 1986 Malibu LCP, LUP and the current submittal.” Similarly, the commission staff ’s March 27 report describing the county’s proposed local coastal
program stated that, “[f ]or the Land Use Plan portion,
the County is requesting an amendment to its existing
certiﬁed Land Use Plan, consisting of a comprehensive
update to replace the existing Land Use Plan with a
new proposed Land Use Plan.”

7

Section 30513 describes the procedures that govern submission and approval of zoning ordinances and other implementing actions (the local implementation plan).

App. 24
In the trial court, plaintiffs argued that section
30514 applies only when the local government is seeking “a minor change to its already-certiﬁed LCP.” They
relied on subdivision (e) of section 30514, which states
that “ ‘amendment of a certiﬁed local coastal program’
includes, but is not limited to, any action . . . that authorizes the use of a parcel of land other than a use
that is designated in the certiﬁed local coastal program
as a permitted use of the parcel.” The trial court disagreed, pointing out that plaintiffs’ argument was inconsistent with the plain language of section 30514,
which speciﬁes that an amendment “is not limited to”
parcel use changes. (§ 30514, subd. (e).)
On appeal, plaintiffs take a different tack, telling
us that section 30514 only applies to amendment of “[a]
certiﬁed local coastal program” (§ 30514, subd. (a)), and
in this case there was no certiﬁed local coastal program
(only the 1986 certified land use plan).8 We are not
persuaded. A local coastal program does consist, as
plaintiff observes, of both a land use plan and an implementation plan. But the only basis for rejection of
an implementation plan is that it does not conform to
or is inadequate to carry out a certiﬁed land use plan.
(§ 30513, subd. (b).) The substance and prerequisite of
a local coastal program is the certiﬁed land use plan;
there cannot be any implementation plan without the
8

The trial court observed that plaintiffs “do not argue that
section 30514(b) applies only to amendments to a certiﬁed LCP,
and the County only had a certiﬁed LUP at the time of the April
10, 2014 Commission hearing. In any event, the Commission’s
interpretation of section 30514(b)’s procedure as applying to an
amendment to a certiﬁed LUP is entitled to deference.”

App. 25
land use plan. Plaintiffs’ limited view of the scope of
section 30514 as permitting amendment of a local
coastal program but not a land use plan is not supported by a sensible construction of its words nor by
any legal authority. To the extent legal authority exists, it is to the contrary. (Cf. Yost, supra, 36 Cal.3d at
p. 573, fn. 9 [“A local government can amend a certiﬁed
LCP [local coastal program] or LUP [land use plan]
(§ 30514).”].)
Plaintiffs insist that when a land use plan entirely
replaces an existing land use plan, it is not an amendment. The cases plaintiffs cite do not support that
proposition. For example, plaintiffs tell us that the repeal and replacement of a statute “supersedes all prior
statutes,” rendering them “annulled, repealed and
void.” For this rule, plaintiffs cite Wood v. Roach (1932)
125 Cal.App. 631, 638. The aptness of plaintiffs’ analogy is questionable, but in any event Wood v. Roach repeatedly refers to the enactments at issue, which
established “a new and complete scheme,” as the
“amendments.” (Id. at pp. 636-638.)
In short, we see no basis in legal authority or
sound reasoning for concluding that an amendment to
a land use plan must do something less extensive than
to replace the plan entirely. This is a circumstance
where it is entirely appropriate to defer to the commission’s interpretation of its own procedures. (See Hines
v. California Coastal Com. (2010) 186 Cal.App.4th 830,
849 [“ ‘it is well established that great weight must be
given to the administrative construction of those
charged with the enforcement and interpretation of a

App. 26
statute. [Citations.] We will not depart from the Commission’s interpretation unless it is clearly erroneous’ ”].) We note as well that the commission has used
the amendment process in analogous circumstances
in the past. (Cf. Headlands Reserve, LLC v. Center
for Natural Lands Management (C.D.Cal. 2007) 523
F.Supp.2d 1113, 1120-1121 [referring to the commission’s certiﬁcation of an amendment to a local coastal
program where “[t]he new amendment replaced the
pre-existing 1986 [local coastal program] and covered
[a] previously uncertiﬁed . . . area”].)
In sum, the commission proceeded properly under
section 30514, and therefore was not required to make
the “substantial issue” determination otherwise required by section 30512. (§ 30514, subd. (b).)
3. The “Blanket Determination” Issue: Agricultural Policies in Sections 30241 and 30242
Plaintiffs next argue the commission failed to proceed in the manner required by law because “it made a
blanket determination that the Santa Monica Mountains are not suitable for agriculture.” Plaintiffs say
that sections 30241 and 30242 of the Coastal Act contemplate a determination of the feasibility of agriculture “in relation to a speciﬁc parcel of property,” on “a
case-by-case basis.” We disagree. Plaintiffs misconstrue sections 30241 and 30242, mischaracterize what
the commission did, and apparently misunderstand
the point of a land use plan.

App. 27
First, plaintiffs cite no authority for their “case-bycase basis” claim. As the commission points out, the
whole point of a local coastal program is to allow local
governments to do area-wide planning in conformity
with the policies of the Coastal Act.
Second, sections 30241 and 30242 do not “contemplate” a case-by-case or parcel-by-parcel determination
of the feasibility of agriculture. The commission
properly considered these provisions, ﬁnding section
30241 does not apply, and appropriately protecting
other lands suitable for agriculture as required by section 30242, as we now explain.
a. Section 30241
As we have said, section 30241 speciﬁes that the
“maximum amount of prime agricultural land shall be
maintained in agricultural production.”9 The commission found this provision did not apply, because prime
agricultural lands in the plan area were either public
parkland, or were developed with existing uses and
not in agricultural production. (The areas containing
prime soils “represent less than 2 percent of the entire
plan area,” and the only areas in agricultural production “are very limited vineyard areas.”) Plaintiffs have
identiﬁed no basis for disagreement with the commission’s conclusion (and completely misstate the basis
for ﬁnding § 30241 inapplicable). As the trial court
9

Section 30241 also speciﬁes six ways in which conﬂicts between agricultural and urban land uses must be minimized.
(§ 30241, subds. (a)-(f ).) Such conﬂicts are not at issue here.

App. 28
pointed out, the commission’s ﬁnding that section
30241 did not apply was “supported by all the evidence
in the record, not just substantial evidence.”
b. Section 30242
As we also said earlier, section 30242 states that
“[a]ll other lands suitable for agricultural use shall
not be converted to nonagricultural uses” unless “continued or renewed agricultural use is not feasible.”
(§ 30242.)
Plaintiffs contend it was “arbitrary and capricious” to ﬁnd, as stated in the staff report, that a “conﬂuence of factors—including steep slopes, poor soils,
scenic considerations, sensitive watersheds, abundant
[environmentally sensitive habitat areas], and lot size
limitations—render the vast majority of the land in the
Santa Monica Mountains unsuitable for agricultural
use.” Plaintiffs point to Mr. Hogrefe’s testimony that
the “vast majority of sites” contain good to excellent
soil conditions for agricultural purposes, and that topographic conditions allow sustainable agricultural uses.
We see nothing arbitrary or capricious about the
commission’s conclusion.
First, there was ample evidence in the staff report
that the plan area is generally unsuitable for agriculture. In addition to steep slopes and poor soils, water
availability is limited, and the area contains signiﬁcant biological and scenic resources. “Activities such as
vineyards or other intensive crop cultivation can have

App. 29
signiﬁcant adverse impacts on the biological integrity
of the surrounding mountain environment and receiving waterbodies.”
Second, as the trial court pointed out, “[t]he mere
possibility of successful agricultural use,” as presented
in the comments of plaintiffs’ experts, is not sufﬁcient.
Plaintiffs did not show that land in the plan area is
actually suitable or feasible for agricultural uses. The
Coastal Act deﬁnes “feasible” as “capable of being accomplished in a successful manner within a reasonable
period of time, taking into account economic, environmental, social, and technological factors.” (§ 30108,
italics added.)
The staff report found that, in combination with
the relatively steep topography, “vegetation removal,
increased soil exposure, and chemical/fertilizer and irrigation requirements from crop-based agriculture can
result in signiﬁcant impacts to biological resources and
water quality from increased erosion, sedimentation of
streams, pollution, slope instability, and loss of habitat.” And plaintiffs completely ignore the requirement
for protection of environmentally sensitive habitat areas. (Recall that more than 87 percent of the 50,000
acres in the land use plan is designated either H1 or
H2 (sensitive environmental resource areas), making
those areas unsuitable for agriculture.) An assessment
of “feasibility” requires consideration of these factors.
Further, the Legislature recognized there would be
conﬂicts between the policies of the Coastal Act, and
declared that “such conﬂicts be resolved in a manner

App. 30
which on balance is the most protective of signiﬁcant
coastal resources.” (§ 30007.5.)
Third, section 30242 protects against the conversion of lands to nonagricultural uses. This necessarily
means, as the words of the statute demonstrate, that
the lands being protected either are now in agricultural use, or have been in agricultural use in the past.
The prohibition on conversion to nonagricultural uses
does not apply where “continued or renewed agricultural use is not feasible.” (§ 30242, italics added.) As
the trial court put it, “[t]his plain language means that
suitable lands that are feasible for ‘continued or renewed agricultural use’ cannot be used for another
purpose. It does not mean that all land suitable for agriculture must be used for agriculture.”
Thus the trial court correctly gave no credence to
testimony that the Santa Monica Mountains area has
been zoned for agriculture “[f ]or nearly 100 years.” The
pertinent point was that “[t]here simply is no evidence that the [local coastal program] converts to a
non-agricultural use any land that actually has been
used for agricultur[e] anytime within the past 100
years.” The local coastal program approved by the commission fully protects areas currently in agricultural
production, as dictated by section 30242.
There is no doubt that the preservation of agricultural land uses is an important public policy in California. (§§ 10201, subd. (c), 31050, 31051.) But so is the
preservation of coastal resources, including environmentally sensitive habitat areas. (§ 30240, subd. (a)

App. 31
[“Environmentally sensitive habitat areas shall be protected against any signiﬁcant disruption of habitat values, and only uses dependent on those resources shall
be allowed within those areas.”].) We ﬁnd no error in
the commission’s construction and application of the
agricultural protections embodied in sections 30241
and 30242.
4. The Fair Trial Issue
Our inquiry extends to “whether there was a fair
trial.” (Code Civ. Proc., § 1094.5, subd. (b).) “[T]he ‘fair
trial’ requirement is equivalent to a prescription that
there be a fair administrative hearing.” (Pomona College v. Superior Court (1996) 45 Cal.App.4th 1716,
1730.)
Plaintiffs contend the April 10 hearing was unfair
and denied them due process because the commission
“gave less than 24-hours’ notice of a new [land use
plan] that would completely ban vineyards.” Plaintiffs
are referring to the staff ’s April 9 addendum, which responded to the public comments on the staff ’s March
27 report. The staff responded by proposing modiﬁcations to the land use plan that would allow new agriculture (but not vineyards), subject to slope and
“organic or biodynamic farming” requirements.
To be clear, the April 9 addendum was not a “new”
land use plan, nor did it propose a new treatment of
vineyards. The addendum was issued in response to
public comments, including those of plaintiffs, and it
addressed their arguments opposing the agriculture

App. 32
ban by allowing some new agriculture, subject to signiﬁcant restrictions. The addendum was issued the day
before the public hearing, and complied with the pertinent regulations, as did the March 27 report. That is
the way the process is supposed to work. Speciﬁcally:
Several regulations govern commission action on
land use plans. (Cal. Code Regs., tit. 14, §§ 1353013541.) As pertinent here, section 13532 of the regulations governs the staff recommendation. It requires the
executive director to prepare the recommendation,
which must set forth speciﬁc ﬁndings, including facts,
legal conclusions, suggested modiﬁcations, and so on.
“In order to assure adequate notiﬁcation,” the regulation speciﬁes the distribution of “the ﬁnal staff recommendation” to interested persons and organizations,
“within a reasonable time but in no event less than 7
calendar days prior to the scheduled public hearing.”
(Id., subd. (b).) As the trial court pointed out, the March
27 report was the “ﬁnal staff recommendation” meeting the criteria in section 13532 of the regulations.
The succeeding section of the regulations (Cal.
Code Regs., tit. 14, § 13533) provides for comments from
the public and others on the staff recommendation.
(Cal. Code Regs., tit. 14, § 13533, subd. (a).) Notably,
section 13533, subdivision (b) states: “The staff shall
respond to signiﬁcant environmental points raised
during evaluation of the [local coastal program]. The
response may be included within the staff report and
shall be distributed to the Commission and the person
making the comment. The response shall be available

App. 33
at the hearing on the [local coastal program] for all persons in attendance.”
The April 9 addendum was the staff ’s response to
the comments received concerning the agricultural
ban, taking them into account and recommending the
modiﬁed policy described above. As the trial court
found, the staff response and recommendation “met
the requirements of 14 CCR section 13533, which only
requires that it be ‘available at the hearing on the [local coastal program] for all persons in attendance.’ ”
Plaintiffs assert the commission’s compliance with
the regulations “is of no moment,” citing a case that
states an affected person “might well be able, in the
circumstances of a given case,” to demonstrate a denial
of procedural due process notwithstanding full compliance with all applicable regulations. (Laupheimer v.
State of California (1988) 200 Cal.App.3d 440, 456, 449
[rejecting claim that a statute and rules (on forest resources) as written denied procedural due process].)
Plaintiffs have made no such demonstration, nor could
they in the circumstances of this case. (Cf. Ryan v. California Interscholastic Federation-San Diego Section
(2001) 94 Cal.App.4th 1048, 1072 [due process “ ‘ “varies according to speciﬁc factual contexts” ’ ”; in some
cases, “ ‘ “due process may require only that the administrative agency comply with the statutory limitations
on its authority” ’ ”].)
Instead, all plaintiffs do is insist that the April 9
addendum “signiﬁcantly altered the fundamental
premise” of the land use plan and was a “complete

App. 34
change in position without any advance knowledge”
that “ﬂies in the face of due process ‘dignity’ and fairness.” Plaintiffs’ rhetoric does not comport with the
facts or the law.
Nothing about the proposed modiﬁcations—responsive to public comment on the plan—altered the
plan’s original objective: “Agricultural uses are proposed for restriction in the proposed [local coastal
plan].” The modiﬁcation merely eased, to a very limited
extent, the categorical restriction on new agriculture.
To call this a “complete change in position” is simply
wrong.
Plaintiffs repeatedly protest that they had no time
to refute the “special, distinct prohibition of all new
vineyards.” But the prohibition on new vineyards
never changed, and plaintiffs present no rational explanation of their assertion that the “complete and
singular vineyard ban” would generate a signiﬁcantly
different response from the original ban on “[n]ew crop,
orchard, vineyard, and other crop-based non-livestock
agricultural uses.” Moreover, plaintiffs in fact responded to the “new” ban on vineyards in the April 9
addendum, both in writing (by letter and with the submission of two research reports), and at the hearing.
In addition, there is precedent for the issuance
of a staff addendum under similar circumstances. In
Ross, the court rejected a claim that availability of a
staff report 13 days before the hearing was unreasonable, observing it was nearly twice the period (seven
days) required by the regulations. (Ross, supra, 199

App. 35
Cal.App.4th at p. 939.) As relevant here, an addendum
to the staff report was issued two days before the hearing. The court held the addendum was “not subject to
the notice requirement under Code of Regulations, title 14, section 13532.” (Ibid.) The court observed that,
“[i]n the addendum, the commission responded to
public comments; recommended modiﬁcation of the
view corridors in response to public comments; and discussed additional biological information speciﬁc to the
subject property’s proposed subdivision.” (Ibid.) The
same is true here: the staff responded to public comments with a modiﬁcation of the ban on new agriculture.
Plaintiffs argue Ross does not apply because the
addendum in that case “made minor changes to the
prior commission staff report” (Ross, supra, 199
Cal.App.4th at p. 915), and did not involve a proposed
new local coastal plan, but rather was directed primarily at a particular beach-front property. These are
distinctions that make no difference. Ross did not base
its analysis on a minor-versus-major basis. Nor do we
consider the continued ban on vineyards to be a major
change.
Further, we note that the commission’s regulations permit a local government to amend its land use
plan “prior to the commencement of the vote” on the
plan as submitted, and the commission then determines whether or not the amendment “is material and
includes changes that have not been the subject of public review and comment before the Commission.” (Cal.
Code Regs., tit. 14, § 13536.) If the amendments are

App. 36
minor, or if they are material but have been the subject
of adequate public comment at the public hearing, the
commission is to consider the amendment and act on
the plan as amended rather than as initially submitted. (Ibid.) That is analogous to the circumstances
here. Plaintiffs have not demonstrated either the materiality of the changes made in the April 9 addendum
or that they were not the subject of adequate public
comment at the hearing.
Plaintiffs’ ﬁnal argument on its due process claim
is that the trial court erred in refusing to augment the
record with documents relating to the federal designation of the Santa Monica Mountains coastal region as
an American Viticultural Area. But plaintiffs did not
even seek augmentation of the record until after the
September 5, 2017 hearing on the merits of their writ
petition. At that hearing, the court resolved all other
issues, and the vineyard ban was briefed and argued.
The court requested supplemental brieﬁng, solely on
whether the ban on vineyards was supported by substantial evidence. Plaintiffs did not request augmentation until a month later, contemporaneously with ﬁling
their supplemental brief.
The court denied the motion as unauthorized and
untimely. The court stated that plaintiffs “did not ask,
and the court did not authorize, a motion to augment
the record,” and plaintiffs provided “no excuse for their
failure to bring this motion at the original writ hearing.” The court further stated that the documents could
have been obtained in time for the commission hearing
had plaintiffs exercised reasonable diligence. Indeed,

App. 37
plaintiffs “admit that many of the documents they seek
to add to the Administrative Record existed at the time
of the Commission’s April 10, 2014 hearing.”
Plaintiffs do not explain why the court’s ruling
was an abuse of discretion, and of course it was not.
They simply assert—again—that they were “misled”
and could have produced more evidence to challenge
the vineyard ban if more than 24 hours’ notice had
been given, and thus they “were prejudiced by the denial of due process.” As we have seen, there was no failure of due process. There was likewise no error in the
court’s denial of plaintiffs’ motion to augment the record.
5. The Substantial Evidence Issue
Plaintiffs contend, in essence, there is no evidence
vineyards are any worse than other crops that are not
subject to a total ban: They contend “there was no substantial evidence that vineyards were deserving of isolation or distinction as being uniquely disruptive of
watersheds, erosion, [environmentally sensitive habitat areas], scenic views or of any other coastal resource.” Our review of the record, like the trial court’s,
leads to a contrary conclusion.
There are, in particular, two pieces of evidence—
the UCLA study (mentioned in the fact section) and
expert testimony from Dr. Jonna Engel, the commission’s staff ecologist—that directly support the commission’s conclusion that vineyards pose a threat to

App. 38
coastal resources and therefore should be banned.10
The evidence plaintiffs cite, on the other hand, while it
supports the suitability of lands in the Santa Monica
Mountains for vineyards, does nothing to counter the
evidence of environmental harm caused by vineyards.
As the trial court pointed out, it is feasibility, not suitability of the land, that is critical, and feasibility as deﬁned in the Coastal Act requires the consideration of
environmental factors.
The UCLA study
The UCLA study sought to identify areas where
vineyard development could potentially occur, and to
identify existing vineyards in the area. Plaintiffs cited
the study to the trial court as “directly on point” and
characterized it as “an unbiased report.” They emphasized its ﬁnding that 62.5 percent of the land in the
Santa Monica Mountains is favorable for vineyard development.
Remarkably, however, plaintiffs completely ignored the substance of the report. (They do not refer to
it at all in their appellate brieﬁng.) The abstract of the
study begins with the observation that, despite conservation efforts, urbanization “has already contributed to
widespread disturbance throughout the [Santa Monica
10

There was other evidence as well, including letters and
statements from various groups and public ofﬁcials, that supported the vineyard ban. The trial court found these documents
were “not particularly persuasive” because there was no discussion of the evidence underlying their conclusions, so they were
“not sufﬁcient on their own to constitute substantial evidence.”

App. 39
Mountains National Recreation Area (SMMNRA)],
and recent trends in the development of vineyards
could pose further threats. Additional vineyard development has the potential to severely disturb natural
areas, which could result in fragmentation and loss of
native species.”
The abstract of the study summarizes: “Analysis
indicated that unprotected areas in the SMMNRA are
at risk of being disturbed by vineyard development. Of
the 48,394 acres in the study site, 62.5% had favorable
physical conditions and appropriate zoning for development. A land cover analysis underscored the potential effects of widespread development as 74.5% of
native vegetation in the study site was at risk.” (Italics
added.)
The report explained in its introduction that an
increasing number of private landowners were beginning to explore opportunities for developing hobby
vineyards, and “[w]e attempted to identify potential areas for vineyard development in order to distinguish
habitats at risk of disturbance and improve land use
policy.” The report identiﬁed “vegetation types that
were at high risk of being displaced or disturbed by
development.” The study explained that “[t]he extent
of maximum development and displaced vegetation
are important due to the adverse effects that vineyard
development may have on an ecosystem.” The authors
cited other studies showing that “[d]isplacement of
natural vegetation is a direct cause of habitat loss and
is disruptive to ecosystem health,” and that “[d]evelopment effects include fragmentation and increased edge

App. 40
effects[,] decreases in habitat size and complexity,
changes in predominant vegetation types, effects on
local hydrology, water pollution, soil erosion, and air
pollution [citations].”
Dr. Engel’s rebuttal statement
Testimony at the April 10 hearing likewise supported the ban on vineyards. Dr. Engel testiﬁed that
vineyards present “numerous signiﬁcant adverse impacts upon the native Mediterranean habitats” in the
Santa Monica Mountains, including habitat loss, habitat fragmentation, disruption of wildlife corridors, and
a signiﬁcant reduction of biodiversity. “From myriad
species of plants and animals, to a near monoculture of
non-native species, peer reviewed research has demonstrated that the insect community associated with
vineyards tends to support more non-native species,
and that the modiﬁed insect community spills over to
the adjacent native habitats.”
Further, “[d]ue to the inherent biology of grapevines,
vineyards in particular introduce signiﬁcant negative
changes to the soil chemistry from the perspective of
Mediterranean plant communities.” Dr. Engel also testiﬁed that, while vineyards in general “may not require
much fertilization, they typically require pesticides
and fungicides, which are introduced into the surrounding native habitats, including the creeks and

App. 41
streams, and watersheds with vineyards.” Other points
in her testimony are reproduced in the next footnote.11
Dr. Engel concluded by citing a recent paper in the
proceedings of the National Academy of Sciences, in
which the author stated: “ ‘Vineyards have long lasting
effects on habitat quality, and may signiﬁcantly impact
fresh water resources. In addition to introducing sterilizing chemicals and fertilizer, which remake the ecosystem, mature vineyards have low habitat value for
native species, and are visited more often by non-native species.’ ”
As noted above, plaintiffs do not address the evidence in the UCLA study, and they refer to Dr. Engel’s
testimony only to challenge her statement that vineyards “typically require pesticides and fungicides,”
and to wrongly characterize her testimony as “inherently untrustworthy.” Instead, plaintiffs contend the
11

Dr. Engel countered testimony from Mr. Schmitz of the
California Coalition of Coastal Farmers that vineyards increase
soil fertility through nitrogen ﬁxation and mineral depositing.
She agreed, but observed “[t]his is not a positive for Santa Monica
Mountains plant communities that are adapted to porous, nutrient poor acidic soil. More nutrient rich soils, such as those created
by vineyards, also tend to facilitate the invasion of non-native species.” Dr. Engel also responded to Mr. Schmitz’s testimony that
wine grapes have deep roots that may serve to stabilize slopes.
“While grapevines may have deep roots, the native woodland,
coastal sage scrub and chaparral communities have plant species
that exhibit root stratiﬁcation. That is plants with shallow roots,
moderately deep roots, and deep roots. This pattern of root distribution naturally provides great soil stability. It is also thought
that this is an adaptation of these species to limited water resources.”

App. 42
evidence “that was speciﬁcally related to vineyards”
was “undisputed that vineyards were ideally suited for
the Santa Monica Mountains,” as vineyards require
much less water and thrive on steep slopes and in poor
soils. That evidence misses the point: As the trial court
observed, “suitability does not make vineyard development feasible,” because feasibility requires an evaluation of environmental, social, and economic factors.
(§ 30108.) And there is no evidence in the record that
counters the evidence that vineyards are harmful to
the ecosystem and coastal resources in the Santa
Monica Mountains.12
In short, we are in complete agreement with the
trial court’s summary of the substantial evidence in
the record: “[V]ineyards are harmful to the Santa
Monica Mountains ecology because they require clearing and scariﬁcation, increase erosion and sedimentation, require pesticide use, and constitute an invasive
monoculture. Of these harms, many are inherent in
the nature of viticulture, and there is no evidence that
they could be mitigated. Vineyards increase erosion because the hillsides are planted with grapes where the
hillsides are bare during winter months and lack the
root stratiﬁcation of native vegetation. . . . They create
air pollution from dust. Grapevines are an invasive
12

The evidence with which plaintiffs sought to augment the
record would not help. As the trial court pointed out, the federal
“American Viticultural Area” designation “makes no ﬁndings
about the environmental harms caused by vineyards or the appropriateness of their use,” and “does not counter [the] Commission’s evidence that viticulture is harmful to the ecosystem and
coastal resources of the Santa Monica Mountains.”

App. 43
monoculture species that impact all of the surrounding
vegetation and harm riparian habitat. . . . They create
water runoff and sedimentation of streams. The only
impacts that could be mitigated [are] the use of pesticides, which is already banned under the [local coastal
plan], and water usage. Under these circumstances,
substantial evidence supports the Commission’s decision to ban new vineyards.”
DISPOSITION
The judgment is afﬁrmed. Respondents shall recover their costs on appeal.
GRIMES, Acting P. J.
WE CONCUR:
STRATTON, J.
WILEY, J.

App. 44
Mountainlands Conservancy,
LLC, et al. v. California
Coastal Commission,
BS 149063

Tentative decision after
continued hearing on
petition for writ of
mandate: denied

[Filed: Oct. 31, 2017]
Petitioners Mountainlands Conservancy, LLC,
Third District Parklands, LLC and Third District
Meadowlands, LLC (collectively, Petitioners”) and Respondent California Coastal Commission (“Commission”) submit supplemental brieﬁng on the issue of
whether there is substantial evidence in the record to
support the Santa Monica Mountains Local Coastal
Program’s ban on vineyards. Petitioners additionally
move to augment the administrative record in this
matter.
The court has read and considered the supplemental briefs and renders the following tentative decision.
A. Statement of the Case
1. Petition
Petitioners commenced this proceeding on June 9,
2014. The operative pleading is the First Amended Petition (“FAP”), ﬁled December 9, 2014. The FAP alleges
in pertinent part as follows.
In 2012 and 2013, the Commission and Los Angeles
County (“County”) engaged in conversations to draft a
proposed LCP. On January 3, 2014, the County gave
notice that a draft LCP would be made available to the

App. 45
public in advance of County hearings to be held on February 11 and 18, 2014. The draft LCP categorically prohibited all new agriculture in the coastal zone. At the
February 11 and 18, 2014 hearings, the County Board
of Supervisors (“Board”) voted to submit the draft LCP
to the Commission for certiﬁcation.
On March 27, 2014, the Commission staff issued
a report on the submission of the proposed LCP (the
“Staff Report”). The Staff Report acknowledged that
“[t]he biological resource protection approach proposed
in the County’s Land Use Plan (“LUP”) designates
three habitat categories: H1, H2, and H3 Habitat. H1
and H2 habitats are designated by the proposed LUP
as Sensitive Environmental Resource Areas (“SERA”),
but the LUP does not explicitly deﬁne these areas as
Environmentally Sensitive Habitat Areas (“ESHA”) as
deﬁned by the Coastal Act. The LUP considers H3 areas to be developed or legally disturbed areas that are
not ESHA. Approximately 87.9% of the 50,000 acres
subject to the LUP is designated either H1 or H2. Only
about 12.1% of the 50,000 acres is designated H3.
The Staff Report’s ﬁndings indicated that “there
are very limited areas where agriculture is possible”
and those areas “are limited to the one or two areas in
active agricultural production.” The Staff Report recommended that the Commission deny certiﬁcation of
the LUP as submitted by the County but approve the
LUP subject to sixty suggested modiﬁcations. One of
the changes recommended in the Staff Report reiterated the LUP’s prohibition of new agricultural uses,

App. 46
but clariﬁed that existing non-livestock agricultural
uses would be allowed to continue but not expand.
On April 7, 2014, Petitioners submitted a letter to
the Commission explaining why they believed the proposed LUP was not consistent with Chapter 3 of the
Coastal Act. The letter presented evidence that large
portions of the area governed by the proposed LUP
were suitable for agriculture.
On April 9, 2014—the day before the scheduled
hearing on the LUP—the Commission’s staff issued
an addendum to its Staff Report (“Addendum”). The
Addendum recommended new modiﬁcations to the
previously categorical ban on new agriculture. The Addendum retained a categorical ban on new vineyards,
but recommend that some new agricultural uses be
permitted subject to a series of onerous conditions. The
Addendum recommended that new agriculture would
be allowed only if organic or biodynamic farming practices were followed. New agriculture would be allowed
only in extremely restricted areas, including natural
slopes of 3:1 or less in H3 habitat areas and slopes of
3:1 or less in the building site area allowed by Policy
CO-51 and Fuel Modiﬁcation Zones A and B.
On April 10, 2014 Petitioners submitted a letter to
the Commission and appeared at the Commission
hearing on the same date to state their opposition to
the LUP. Petitioners indicated that various parties had
raised substantial issues with respect to the proposed
LUP’s conformity to Chapter 3 of the Coastal Act and
that certiﬁcation of the LUP without an additional

App. 47
hearing before the full Commission would be premature and a violation of the Coastal Act. The Commission then approved and certiﬁed the proposed LUP
subject to the modiﬁcations suggested in the Staff Report, the modiﬁcations suggested in the Addendum,
and a few additional modiﬁcations developed at the
hearing.
On June 26, 2014, the Commission Staff issued a
report on the proposed Local Implementation Program
(“LIP”) for the LCP. This report recommended that the
Commission reject the LIP as presented by the County
and certify it with some mostly minor modiﬁcations.
On July 7, 2014, counsel for Petitioners submitted
a letter to the Commission objecting to the proposed
LIP. This letter contended that the proposed LIP was
inadequate to carry out the provisions relating to agriculture because the proposed LIP provided no deﬁnition of “biodynamic farming” and was imprecise as to
provisions such as its ban on the use of “synthetic” pesticides. The Commission subsequently approved the
LIP subject to the recommended modiﬁcations.
On August 26, 2014, the County issued a resolution adopting the both the LUP and LIP portions of the
LCP as modiﬁed by the Commission and directing the
transmittal of the LCP to the Commission for ﬁnal certiﬁcation. On October 10, 2014, the Commission issued
its ﬁnal certiﬁcation of the LCP.
Petitioners allege that the Commission’s decision
to certify the LCP was an abuse of discretion because
it failed to proceed in the manner required by law.

App. 48
Even with the modiﬁcations suggested by the April 9,
2014 Addendum to the Staff Report, there were substantial issues raised as to the proposed LUP’s conformity with the policies of Chapter 3 of the Coastal
Act. As a result, the Commission was required to conduct a further hearing on those issues and failed to do
so.
The Commission further failed to proceed in a
manner required by law when it considered the Addendum, which was made available to the public less than
24 hours prior to the April 10, 2014 hearing. Petitioners allege that this action by the Commission deprived
the public of a meaningful opportunity to address the
new ﬁndings and policies in the Addendum.
Petitioners further allege that the Commission’s
decision to certify the LUP also was invalid because
the ﬁndings are not supported by the evidence. The
Staff Report’s ﬁndings indicate that “there are very
limited areas where agriculture is possible” and that
those areas “are limited to the one or two areas in active agricultural production.” Petitioners and others
submitted evidence that large areas other than areas
in current agricultural production are suitable for
agriculture. Moreover, the Commission was not presented with sufﬁcient evidence on which to allow only
organic or biodynamic farming and prohibit conventional forms of agriculture. The Commission also was
not been presented with sufﬁcient evidence to justify a
categorical prohibition of vineyards as opposed to other
types of agriculture.

App. 49
2. Course of Proceedings
The hearing on the FAP was held on September 5,
2017. At the hearing, the court found as follows. The
Addendum satisﬁed the procedural requirements of 14
CCR section 13533 and was not subject to the seven
day notice requirement of 14 CCR section 13532. The
Commission was not required under the Coastal Act to
hold a separate hearing on any substantial issues alleged by Petitioners. The Commission did not fail to
proceed in the manner required by law by certifying
the LCP with a ban on pesticides. Substantial evidence
supported the Commission’s ﬁndings that a large percentage of the plan area was not suitable for agricultural use and not subject to section 30242’s restriction
on the conversion of lands suitable for agricultural use.
Finally, the Commission did not err in approving the
LUP prior to the development of the detailed deﬁnitions of organic and biodynamic farming in the LIP.
The court continued the hearing to the instant
date for further brieﬁng on the question of whether the
LCP’s total ban on vineyards is supported by substantial evidence.
B. Standard of Review
Code of Civil Procedure (“CCP”) section 1094.5 is
the administrative mandamus provision which structures the procedure for judicial review of adjudicatory decisions rendered by administrative agencies.
Topanga Ass’n for a Scenic Community v. County of
Los Angeles, (“Topanga”) (1974) 11 Cal.3d 506, 514-15.

App. 50
CCP section 1094.5 does not in its face specify
which cases are subject to independent review, leaving
that issue to the courts. Fukuda v. City of Angels,
(1999)20 Cal.4th 805, 811. In cases reviewing decisions
which affect a vested, fundamental right the trial court
exercises independent judgment on the evidence.
Bixby v. Pierno, (1971) 4 Cal.3d 130, 143. See CCP
§1094.5(c). In other cases, the substantial evidence test
applies. Mann v. Department of Motor Vehicles, (1999)
76 Cal.App.4th 312, 320; Clerici v. Department of
Motor Vehicles, (1990) 224 Cal.App.3d 1016, 1023. Decisions of the Coastal Commission are governed by
the substantial evidence standard. Ross v. California
Coastal Comm., (“Ross”) (2011) 199 Cal.App.4th 900,
921.
“Substantial evidence” is relevant evidence that a
reasonable mind might accept as adequate to support
a conclusion (California Youth Authority v. State Personnel Board, (“California Youth Authority”) (2002)
104 Cal.App.4th 575, 585) or evidence of ponderable
legal signiﬁcance, which is reasonable in nature, credible and of solid value. Mohilef v. Janovici, (1996) 51
Cal.App.4th 267, 305, n.28. The petitioner has the burden of demonstrating that the agency’s ﬁndings are not
supported by substantial evidence in light of the whole
record. Young v. Gannon, (2002) 97 Cal.App.4th 209,
225. The trial court considers all evidence in the administrative record, including evidence that detracts
from evidence supporting the agency’s decision. California Youth Authority, supra, 104 Cal.App.4th at 585.

App. 51
The agency’s decision must be based on the evidence presented at the hearing. Board of Medical Quality Assurance v. Superior Court, (1977) 73 Cal.App.3d
860, 862. The Commission is only required to issue
ﬁndings that give enough explanation so that parties
may determine whether, and upon what basis, to review the decision. Topanga, supra, 11 Cal.3d at 514-15.
Implicit in CCP section 1094.5 is a requirement that
the agency set forth ﬁndings to bridge the analytic gap
between the raw evidence and ultimate decision or
order. Topanga, 11 Cal.3d at 515.
The court may reverse the Commission’s fact decision only if, based on the evidence before it, a reasonable person could not have reached the Commission’s
conclusion. Ross, supra, 199 Cal.App.4th at 922; Bolsa
Chica Land Trust v. Superior Court, (“Bolsa Chica”)
(1999) 71 Cal.App.4th 493, 503. The court may not disregard or overturn an administrative ﬁnding of fact
simply because it considers that a contrary ﬁnding
would have been equally or more reasonable. Boreta
Enterprises, Inc. v. Department of Alcoholic Bev. Control, (1970) 2 Cal.3d 85, 94. Any reasonable doubts
must be resolved in favor of the Commission. Paoli v.
California Coastal Comm., (1986) 178 Cal.App.3d 544,
550; City of San Diego v. California Coastal Comm.,
(1981) 119 CalApp.3d 228, 232.
The court independently reviews questions of law,
including statutory interpretation. McAllister v. California Coastal Commission, (“McAllister”) (3008) 169
CalApp.4th 912, 921-22. Given its Commission’s special familiarity with the regulatory and legal issues,

App. 52
the Commission’s interpretation of the statutes and
regulations under which it operates is entitled to deference. Ross v. California Coastal Comm., supra, 199
Cal.App.4th at 938; Hines v. California Coastal Comm.,
(2010) 186 Cal.App.4th 830, 849.
An agency is presumed to have regularly performed its official duties (Evid. Code §664), and the
petitioner therefore has the burden of proof. Steele v.
Los Angeles County Civil Service Commission, (1958)
166 Cal.App.2d 129, 137. “[T]he burden of proof falls
upon the party attacking the administrative decision
to demonstrate wherein the proceedings were unfair,
in excess of jurisdiction or showed prejudicial abuse of
discretion. Afford v. Pierno, (1972) 27 Cal.App.3d 682,
691.
C. Coastal Act
1. Purpose
The Coastal Act of 1976 (Pub. Res. Code1 §30000
et seq.,) (the “Coastal Act” or the “Act”) is the legislative
continuation of the coastal protection efforts commenced when the People passed Proposition 20, the
1972 initiative that created the Coastal Commission.
See Ibarra v. California Coastal Comm., (“Ibarra”)
(1986) 182 Cal.App.3d 687, 693. One of the primary
purposes of the Coastal Act is the avoidance of deleterious consequences of development on coastal
1

All further statutory references are to the Public Resources
Code unless otherwise stated.

App. 53
resources. Paciﬁc Legal Foundation v. California
Coastal Comm., (1982) 33 Cal.3d 158, 163. The Supreme Court described the Coastal Act as a comprehensive scheme to govern land use planning for the
entire coastal zone of California. Yost v. Thomas, (1984)
36 Cal.3d 561, 565. The Act must be liberally construed
to accomplish its purposes and objectives. §30009.
The Coastal Act’s goals are binding on both the
Commission and local government and include: (1)
maximizing, expanding and maintaining public access
(§§ 30210-14); (2) expanding and protecting public
recreation opportunities (§§ 30220-24); 3) protecting
and enhancing marine resources including biotic life
(§§ 30230-37); and (4) protecting and enhancing land
resources (§§ 30240-44). The supremacy of these
statewide policies over local, parochial concerns is a
primary purpose of the Coastal Act, and the Commission is therefore given the ultimate authority under
the Act and its interpretation. Pratt Construction Co.
v. California Coastal Comm., (2008) 162 Cal.App.4th
1068, 1075-76.
2. Chapter 3 Policies
The Coastal Act includes a number of coastal protection policies, commonly referred to as “Chapter 3
policies,” which are the standards by which the permissibility of proposed development is determined.
§30200(a). The Coastal Act must be liberally construed
to accomplish its purposes (§30009), and any conﬂict
between the Chapter 3 policies should be resolved in a

App. 54
manner which on balance is the most protective of signiﬁcant coastal resources. §30007.5.
The Coastal Act provides for heightened protection of ESHAs, deﬁned as “any area in which plant or
animal life or their habitats are either rare or especially valuable because of their special nature or role
in an ecosystem and which could be easily disturbed or
degraded by human activities and developments.”
§30107.5. ESHAs “shall be protected against any signiﬁcant disruption of habitat values, and only uses dependent on those resources shall be allowed within
those areas. §30240(a). Development in areas adjacent
to EHSAs shall be sited and designed to prevent impacts which would signiﬁcant degrade those areas, and
shall be compatible with the continuance of those habitat and recreation areas. Id. Thus, the Coastal Act
places strict limits on the uses which may occur in an
ESHA and carefully controls the manner in which uses
around the ESHA are developed. Bolsa Chica, supra,
71 Cal.App.4th at 506-08. See also Feduniak v. California Coastal Commission, (2007) 148 Cal.App.4th 1346,
1376.
Other pertinent Chapter 3 policies include the
protection of marine life (§30230), the biological
productivity and quality of coastal waters, streams,
lands, and estuaries (§30231), and the scenic and visual qualities of coastal areas. §30251. Where conﬂicts
occur between one or more Chapter 3 policies of the
Coastal Act, the conﬂict shall be resolved in a manner
which on balance is the most protective of signiﬁcant
coastal resources. §30007.5.

App. 55
3. The LCP
Because local areas within the coastal zone may
have unique issues not amenable to centralized administration, the Coastal Act “encourage[s] state and local
initiatives and cooperation in preparing procedures
to implement coordinated planning and development”
in the coastal zone. §30001.5; Ibarra, supra, 182
Cal.App.3d at 694-96. To that end, the Act requires
that “each local government lying, in whole or in part,
within the coastal zone” prepare a LCP. §30500(a). The
Coastal Act deﬁnes a LCP as:
“a local government’s (a) land use plans, (b)
zoning ordinances, (c) zoning district maps,
and (d) within sensitive coast resource areas,
other implementing actions, which, when
taken together, meet the requirements of, and
implement the provisions and policies of this
division [the Coastal Act] at the local level.”
§30108.6.
Similar to a local government’s general plan, the
LCP provides a comprehensive plan for development
within the coastal zone with a focus on preserving and
enhancing the overall quality of the coastal zone environment as well as expanding and enhancing public
access. Citizens of Goleta Valley v. Board of Supervisors, (1990) 52 Cal.3d 553, 571. A local government
must prepare its LCP in consultation with the Commission and with full public participation. §§30500(a),
(c), 30503; McAllister, supra, 169 Cal.App.4th at 930,

App. 56
953. The LCP consists of a LUP2 and the implementing
actions of zoning ordinances, district maps, and other
implementing actions (LIP). Yost v. Thomas, supra, 36
Cal.3d at 571-72. These may be prepared together or
sequentially, and may be prepared separately for separate geographical areas or “segments” of a local
coastal zone. §30511.
When a local government completes its draft LCP,
it is submitted to the Commission for certiﬁcation.
§30510. The Coastal Commission reviews the LUP for
consistency with the Chapter 3 Coastal Act policies,
§§ 30512(c), 30512.2. The Commission determines
whether to certify the proposed LUP as submitted, or
whether it raises “substantial issues” that necessitate
further hearing. §30512(a). For any aspects of the LUP
that are not certiﬁed as submitted, the Commission
may certify them conditioned upon the incorporation
of suggested modiﬁcations. §30512(b). Where amendments are made to an already-certiﬁed LUP, the Commission proceeds in nearly the same manner except
that the Commission shall make no determination
whether a proposed LUP amendment raises a substantial issue of conformance with Chapter 3 policies.
§30514(b).

2

The LUP is deﬁned in section 30108.5 as: “[T]he relevant
portions of a local government’s general plan, or local coastal
element which are sufﬁciently detailed to indicate the kinds, location, and intensity of land uses, the applicable resource protection and development policies and, where necessary, a listing of
implementing actions.”

App. 57
The Coastal Commission reviews the LIP, and any
amendments to a certiﬁed-LIP, for conformity with the
LUP. §30513. It may reject an LIP only if it does not
conform with or is inadequate to carry out the LUP.
§§ 30513, 30514.
Once the Commission has certiﬁed the LCP, the
Commission delegates its permit-issuing authority to
the local government. §30519.
D. Motion to Augment
Petitioners move to augment the record in this action with the Malibu Coast’s application and supporting documents for designation as an American
Viticulture Area, submitted in July 2013 to the U.S.
Department of Treasury, Alcohol and Tobacco Tax and
Trade Bureau (“TTB”).3
CCP section 1094.5(e) provides: “[w]here the court
ﬁnds that there is relevant evidence which, in the exercise of reasonable diligence, could not have been
produced or which was improperly excluded at the
hearing before respondent, it may enter judgment as
provided in subdivision (f ) remanding the case to be
reconsidered in the light of that evidence; or, in cases
in which the court is authorized by law to exercise its
independent judgment on the evidence, the court may

3

Petitioner asks the court to judicially notice all of its exhibits in support of the motion. The mere fact that a document was
downloaded from a government cite does not authenticate it and
the request is denied. See Evid. Code §452(c).

App. 58
admit the evidence at the hearing on the writ without
remanding the case.”
Petitioners argue that, at all times relevant to the
issues in dispute here, the Administrative Record
shows that the Commission was on notice that an application had been made to the TTB to have the Santa
Monica Mountain coastal area designated as an American Viticulture Area (“AVA”). Mot. at 7. On April 8,
2014, the Commission received two emails referring to
the TTB’s publication of a proposed rule designating
the Santa Monica Mountain Coastal area as an AVA.
AR 9017, 9022. At the April 10, 2014 hearing, a member of the Coastal Coalition of Family Farmers mentioned that the AVA application has been approved and
the TTB is designating the Santa Monica Mountains
coastal area as a ﬁne wine growing region. AR 1299899. Petitioners admit that many of the documents they
seek to add to the Administrative Record existed at the
time of the Commission’s April 10, 2014 hearing, they
contend that they could not have identiﬁed and submitted these documents in the short, 24 hour period
between the issuance of the Addendum proposing to
ban only vineyards and the April 10 hearing. Mot. at 9.
Moreover, the TTB’s approval of the Santa Monica
Mountain coastal area as a designated AVA actually
occurred after the April 10, 2014 hearing, as did an
August 25, 2014 letter from Koutnik to the County contending that there is no credible scientiﬁc study that
vineyards cause greater environmental harm than any
other agriculture crop. Mot. at 10-11.

App. 59
Petitioners’ attempt to augment the record is improper. The Commission is correct that Petitioners’ motion to augment is unauthorized. Opp. at 8. The court’s
September 5 order continued the hearing solely for
supplemental brieﬁng on the issue of whether there is
substantial evidence in the Administrative Record to
support the vineyard ban. Petitioners did not ask, and
the court did not authorize, a motion to augment the
record. Therefore, the motion is outside the scope of
permissible brieﬁng.
Petitioners’ belated attempt to augment the record
also is untimely. A motion to augment should normally
be calendared for hearing concurrently with the hearing on the writ. Mejia v. City of Los Angeles, (“Mejia”)
(2005) 130 Cal.App.4th 322, 336, n. 5. The Petition was
ﬁled on June 9, 2014. The Commission sent a draft index of the Administrative Record to Petitioners, who
determined “that all documents pertaining to [the]
case” had been included and therefore Petitioners had
no objection to it. Opp. at 2, Ex. B. Petitioners ﬁled their
opening brief on July 15, 2016, and the hearing occurred on September 5, 2017. Petitioners raised the
vineyard ban in their briefs, and yet failed to ﬁle a motion to augment the record to add the AVA application
documents for the September 5, hearing.
In reply, Petitioners assert that the motion to
augment was timely ﬁled and calendared prior to the
continued hearing, and that there was no delay. Reply
at 7-8. Petitioners argue that Mejia, supra, 130
Cal.App.4th at 336, n. 5, merely states that motions to
augment should normally be calendared for hearing

App. 60
concurrent with the writ, but does not hold that a motion ﬁled after the writ hearing is untimely. Reply at 8.
While this is true, that does not mean that a petitioner
may ﬁle a motion to augment after the hearing without
good reason. Petitioners provide no excuse for their
failure to bring this motion at the original writ hearing. The issue of the vineyard ban was briefed and argued at that hearing, and the evidence Petitioners now
seek to introduce would have been relevant at that
hearing. Petitioners’ attempt to augment the record
now is untimely. Petitioners also fail to address the fact
that the motion is beyond the scope of permissible supplemental brieﬁng.
Even if arguendo the court were to consider the
motion, Petitioners have not shown that they could not,
in the exercise of reasonable diligence, have presented
the AVA application and supporting documents for the
Commission’s April 10, 2014 hearing. As the Commission correctly points out, Petitioners were on notice at
least as of January 6, 2014 that vineyards and grape
growing were expressly restricted in the draft LUP. AR
68. The County’s February 19, 2014 submission to the
Commission further stated that the proposed regulations would cause the “elimination of new vineyards”.
AR 808, 817. Written comments referencing the AVA
application were submitted to the Commission at least
two days before the hearing. AR 9017, 9022. Had Petitioners exercised reasonable diligence, they could have
obtained the AVA application in the time between February 2014 and April 2014.

App. 61
Petitioners’ contend that they had only 24 hours
in which to develop their strategy of opposing the vineyard ban because they initially chose to ﬁght the general agriculture ban and not focus on vineyard uses.
Mot. at 8; Reply at 5. This is not sufﬁcient to meet the
standard under CCP section 1094.5(e). Petitioners
knew about the AVA application prior to the hearing.
They knew that the County was expressly targeting
vineyards in the draft LUP. Had Petitioners exercised
reasonable diligence, they could have submitted the
AVA application at the hearing.4
The motion to augment is denied.
E. Statement of Facts5
The Draft LUP dated January 6, 2014 states that
“new crop, orchard, vineyard, or other agricultural use
is prohibited.” AR 68. LU-11 in this same document
states that the LUP will “prohibit new agricultural
uses, and limit existing commercial or “hobby” agricultural uses such as vineyards, orchards, and field or
row crops in order to preserve natural topography and
4

The TTB’s approval of the Santa Monica Mountains coastal
area as a designated AVA occurred, and the August 25, 2014
Koutnik letter was written, after the April 10, 2014 hearing. The
court might have augmented the Administrative Record with the
TTB approval, but not the Koutnik letter, had the motion been
timely presented.
5
The court instructed the parties to attach all relevant pages
regarding the vineyard ban from the Administrative Record to
their supplemental briefs. The following statement of facts addresses only the vineyard ban that is the subject of the supplemental brieﬁng.

App. 62
locally-indigenous vegetation, and to prevent the loading of soil and chemicals into drainage courses.” AR
124.
1. Scientiﬁc Studies
a. Biota Study
The Biota Study included as part of the County’s
submission to the Commission on February 19, 2014
was conducted in order to determine and delineate environmentally sensitive habitat areas (“ESHA”). AR
582-83. The Biota Study states that there are no scientiﬁc studies conducted in Mediterranean ecosystems to
determine the range and magnitude of effects that
vineyards may have on local ecology. AR 616. Resource
agencies in other states have recommended placing a
buffer radius around the habitat of certain sensitive
species in which pesticides are not used, which could
impact vineyard development. AR 617.
The Biota Study states that the increased use of
pesticides, herbicides, and fungicides for certain development, especially viticulture, has “inevitably led to
various forms of degradation of natural communities
in adjacent areas.” AR 645-46. The Biota Study warns
against the increased use of pesticides, especially for
viticulture, which is becoming an important land use
in the Santa Monica Mountains. AR 646.

App. 63
b. UCLA Study
A June 2012 study from the UCLA Institute of the
Environment & Sustainability, titled “Potential Extent
of Vineyard Development in the Santa Monica Mountain National Recreation Area” (“UCLA Study”) states
that additional vineyard development has the potential to severely disturb natural areas. AR 8940. 62.5%
of the land in the Santa Monica Mountains is “favorable” for vineyard development. AR 8940. In the unincorporated section of the Santa Monica Mountains, the
land suitable for vineyard development increases to
68%. AR 8959. There are 38 existing vineyards in the
Santa Monica Mountains, and 6 of them have land
whose slopes exceed 33%. AR 8960-62.
As an increasing number of private landowners in
the Santa Monica Mountains plan area explore hobby
vineyards, the consequences for habitat disturbance
and improved land use policy should be understood.
AR 8941. Vineyards displace native vegetation, which
is a direct cause of habitat loss and is disruptive to
ecosystem health. AR 8942. Other studies have also
shown that vineyards have adverse effects on ecosystems due to displacement and fragmentation of natural vegetation, effects on local hydrology, water
pollution, soil erosion, and air pollution. AR 8942 (citations omitted). Unprotected areas in the Santa Monica
Mountains are at risk of being disturbed by new vineyards, and 74.5% of the native vegetation is at risk. AR
8940.

App. 64
c. Koutnik Report
The Koutnik report, submitted by Petitioners, states
that none of the soil types for the Malibu-Newton vineyard area match the soil mapping units listed by DOC.
AR 7266. Vineyards can be successfully grown in Solstice Canyon, which has Cotharin clay loam and 30 to
75 percent slopes. AR 7267. They can also be grown in
Malibu Canyon, which has a Chumash-Boades-Malibu
association, and 30 to 75 percent slopes. AR 7267. Thus,
the Commission report dismissing agricultural uses
based on soil type and soils too steeply sloping does not
correspond to current successful agricultural operations in the area. AR 7267.
d. Hogrefe Report
The report by Scott J. Hogrefe (“Hogrefe”), submitted by Petitioners, states that the Mediterranean climate of the Santa Monica Mountains region is ideally
suited to agriculture, and that the soil conditions and
topographic conditions allow sustainable agricultural
use. AR 8730.
2. The County’s Submissions
The County’s submission to the Commission proposes the ban on vineyards, stating that there will be
no new vineyards in the Coastal Zone following approval of the LCP. AR 808. The elimination of new vineyards and new crop areas would reduce the demand on
the scarce water supply in the Santa Monica Mountains. AR 817. It would also improve water quality and

App. 65
visual resources. AR 808. The County acknowledged
that many residents of the Santa Monica Mountains
have planted grape vines on their property in the fuel
modiﬁcation area. AR 818. The vines from these vineyards have escaped into natural areas where they interfere with native plants, and are consumed by native
animals, which then spread the vines even further. AR
818. Wine grapes have been observed growing wild in
Encinal Creek, some distance from the nearest vineyard. AR 818.
In an April 8, 2014 email, the County further
stated that the spread of invasive plants in the Santa
Monica Mountains is a serious problem that threatens
the biological diversity of the unique biome. AR 8707.
Grapevines have been found in areas outside of established vineyards, and pose a serious threat to the riparian vegetation found along the region’s streams. Id.
The fact that grapevines are already spreading outside
established vineyards, when such vineyards have existed for less than 20 years, is an indicator that the plat
will become invasive. Id. Where grapevines grow, native vegetation does not. Id. Establishing new vineyards would require a number of activities that
unavoidably adversely impact the Coastal Zone resources, such as water quality, riparian area, water
availability, and scenic views. AR 9407.

App. 66
3. Comments on the LUP
a. Heal the Bay Letter
A letter from Heal the Bay stated that Heal the
Bay’s science monitoring program has collected data to
assess the health of the Malibu Creek Watershed, since
1998. AR 1934. A March 2013 report found that local
pollution sources include runoff from vineyards and
equestrian facilities, and expressed concern regarding
the recent increase in viticulture. AR 1935-36. Heal the
Bay stated that it was particularly concerned that
vineyards are associated with excess water use, sedimentation, polluted runoff, and habitat loss and damage. AR 1936. The letter also cited amphibian studies
conducted since the early 1990s by professors at Pepperdine University, which showed that in-stream
habitat has declined in Newton Creek, which is downstream from several vineyards. Id. The amphibian
studies attributed the increase in sediment in one of
the study pools to an upstream vineyard. AR 1936-37.
Finally, three sites downstream from vineyards
showed high levels of phosphate and nitrate, as compared to reference sites located downstream from open
land. AR 1938.
The Heal the Bay letter acknowledged that 62.5%
of the land in the Santa Monica Mountains is suitable
for vineyard development. AR 1939. Much of the potential for vineyard development is on private land, and
such development would be in direct contradiction to
the goals of the Santa Monica Mountains Natural
Recreation Area, which includes the preservation and

App. 67
protection of the natural resources and assets of the
park. AR 1939.
b. Other Public Comments
County Supervisor Zev Yaroslaysky submitted a
letter in support of the LUP, stating that it would protect coastal resources by prohibiting new vineyards.
AR 2082, 2414. Yaroslaysky stated that vineyards lead
to soil erosion, stream and beach pollution, the spread
of invasive species, the removal of natural habitat, and
the introduction of highly visible changes to the landforms and natural landscape of the Santa Monica
Mountains. Id.
Representatives from Heal the Bay met with Commissioner Jana Zimmer and stated that they were
particularly concerned about the adverse effects of
vineyards. AR 1918. Yaroslaysky met with Commissioners and stated that the vineyard ban was responsive to demonstrated damage to resources caused by
existing vineyards, especially on steep slopes. AR 1919.
These include water quality and air quality impacts
from pesticides, erosion, visual impacts, and over use
of well water. AR 1919.
California State Senator Fran Pavley wrote a letter in support of the vineyard ban on April 1, 2014,
stating that the increase in agricultural uses, including vineyards, was of concern due to the use of pesticides, terracing and grading, runoff of polluted soil, and
consumption of water. AR 1924-25.

App. 68
A letter dated February 10, 2014 by the Resource
Conservation District of the Santa Monica Mountains
supports the vineyard ban. AR 869. On April 8, 2014,
the Surfrider Foundation submitted comments stating
that expanded viticulture would be destructive to the
environment and habitat in the Santa Monica Mountains. AR 1928. Other members of the public submitted
comments complaining about the adverse effects of
vineyards, such as visually harmful effects (AR 1962,
9010), concern for wildlife habitat (AR 1969) and concerns over the impacts on native chaparral and sage
scrub (AR 1977).
4. Staff Reports
The Commission Staff Report on March 27, 2014
stated that there are approximately 50 acres of vineyards planted within the Coastal Zone. AR 1536. The
only areas in the Santa Monica Mountains that are
currently in agricultural use are the vineyard areas.
AR 1619. There are two large commercial vineyards,
and several small hobby vineyards of less than two
acres. AR 1619. The steep slopes, poor soils, limited water availability, and other constraints make the cultivation of vineyards infeasible or extremely difﬁcult
and costly. AR 1620.
The Staff Report found that vineyards have significant adverse impacts on the biological integrity of the
surrounding mountain environment and receiving
bodies of water. AR 1620. Clearing land in order to
plant crops requires native vegetation removal, soil

App. 69
disturbance, irrigation, and chemical and fertilizer application. AR 1622-23. The areas between grapes are
bare, and since grapes replace the evergreen cover of
native chaparral vegetation, even more bare ground
is exposed in the winter. AR 1623. The prohibition
against any new crops will avoid potential adverse
impacts, such as increase soil exposure, chemical/fertilizer and irrigation requirements, erosion, sedimentation, pollution, and loss of habitat. AR 1623.
In the April 9, 2014 Addendum, staff explained
that vineyards require both the removal of all vegetation and scariﬁcation of the soils. AR 1910. This results
in increased erosion and sedimentation. AR 1910.
Vineyards typically require the application of pesticides that can adversely impact coast streams and riparian habitat. AR 1910. Vineyards also require large
amounts of water, which draws down ground water and
impacts streams and seeps. AR 1910. Further, grapevines can be an invasive type of vegetation in riparian
areas. AR 1910-11. Finally, the trellises necessary to
support the vines adversely impact scenic views. AR
1911.
5. Hearing Testimony
Supervisor Yaroslaysky spoke at the hearing, and
stated that the Santa Monica Mountains are not the
right place for new vineyards. AR 12983. Vineyards
visually change the landscape in a way that is incompatible with the Santa Monica Mountains Recreation
area. AR 12983. There are other issues with vineyards,

App. 70
such as pesticide use and water issues. AR 12983. Vineyards use excessive water, which prevents neighboring
farms from having sufﬁcient water. AR 12983.
Representatives of Heal the Bay testiﬁed that
open space in the Santa Monica Mountains has been
increasingly replaced with monoculture vineyards. AR
12993. There is no permanent ground water basin in
the Santa Monica Mountains, which means that viticulture uses compete with residential wells for water.
AR 12993. Vineyards also scar the hillside, exposing
sediment which erodes into the streams. AR 12993.
Don Schmitz (“Schmitz”) appeared at the hearing
on behalf of the Coalition of Family Farmers, and testiﬁed that an application had been made to have the
Santa Monica Mountains certified as an American
Viticultural Area. AR 12998-99. Grapevines hold the
slopes better than any other type of agriculture and
prevent erosion. AR 12999. Schmitz also stated that
grapevines go down to an average of 21 feet, and can
be as deep as 40 feet. AR 12999. 85% of California soil
is moisture rich enough to need no irrigation. AR
12999.
Coastal Commission Staff Ecologist Dr. Jonna Engel (“Engel”) testiﬁed about the adverse impacts speciﬁc to vineyards, which include habitat loss, habitat
fragmentation, and a reduction in biodiversity. AR
13052. Dr. Engel stated that “peer reviewed research
has demonstrated that the insect community associated with vineyards tends to support more non-native
species . . . ” AR 13052. Moreover, the biology of

App. 71
grapevines introduces signiﬁcant negative changes to
the soil chemistry from the perspective of Mediterranean plant communities. AR 13052.
While vineyards do not require much fertilization,
they do require pesticides and fungicides which are introduced into the surrounding creeks and streams, and
watersheds. AR 13052. Although vineyards do increase
soil fertility, this is not a positive, as the Santa Monica
Mountains plant communities are ill adapted to nutrient rich soils. AR 13052. Finally, while grape vines may
have deep roots, native species have a variety of root
depth that provides natural soil stability. AR 13052.
Overall, vineyards have long-lasting impacts on habitat quality. AR 13053.
F. Analysis
Petitioners argue that the LCP’s vineyard ban is
not based on concerns about erosion, steep slopes, sediment, or runoff in grape farming, but rather is a land
grab so that the County can create public parkland using private property. Pet. Supp. Br. at 10. The Commission’s decision to distinguish vineyards from other
agricultural crops in revised Policy CO-102/LU-11 is
not based on scientiﬁc evidence or studies in the Administrative Record. Pet. Supp. Br. at 2. There are no
studies on farming in the coastal zone, the feasibility
of vineyards, the impact of agriculture on soil erosion, or any discussion of how these concerns can be
mitigated. Pet. Supp. Br. at 3. In fact, the evidence

App. 72
demonstrates that vineyards are viable in the Santa
Monica Mountains. Pet. Supp. Br. at 7-8.
The Commission asserts that it banned new vineyards in the LCP because vineyards have unique,
harmful impacts on coastal resources. Although vineyards are clearly feasible in the Santa Monica Mountains, as indicated by the presence of several hobby
vineyards and two commercial vineyards, the presence
of a vineyard is uniquely harmful due to the clearing
and scariﬁcation of the land, the biological makeup of
the grapevines, sedimentation caused by increased soil
erosion, and other impacts. Resp. Supp. Br. at 3.
In support of this argument, the Commission cites
to the Biota Study, the Heal the Bay letter, and the
UCLA Study. Resp. Supp. Br. at 3-4. The Biota Study
includes increased viticulture use on a list of items
having “inevitably led to various forms of degradation
of natural communities in adjacent areas.” AR 645-46.
The Biota Study also warns against the increased
use of pesticides, especially for viticulture. AR 646. The
Heal the Bay letter cites to a study it performed, but
which is not attached. AR 1934. The letter only summarizes some of the ﬁndings from that study, which
showed that vineyards contribute to local pollution,
sedimentation, and habitat loss. AR 1935-36.
The UCLA Study, however, directly supports the
Commission’s concerns about permitting new vineyards in the Santa Monica Mountains. The UCLA
Study states that new vineyard development has the
potential to severely disturb natural areas. AR 8940.

App. 73
Vineyards displace native vegetation, which is a direct
cause of habitat loss and is disruptive to ecosystem
health. AR 8942. Other studies have also shown that
vineyards have adverse effects on ecosystems due to
displacement of natural vegetation and fragmentation of habitat, effects on local hydrology, water pollution, soil erosion, and air pollution. AR 8942 (citations
omitted). Unprotected areas in the Santa Monica
Mountains are at risk of being disturbed by new vineyards, and 74.5% of the native vegetation is at risk. AR
8940.
Testimony at the hearing supports the Commission’s decision to ban vineyards. Coastal Commission
Staff Ecologist Dr. Engel testiﬁed about the harmful
effects of vineyards in the Santa Monica Mountains.
AR 13052-53. Vineyards create imbalanced insect populations, impacting native vegetation. AR 13052. The
biology of grapevines signiﬁcantly changes the nutrient balance in the soil, also negatively impacting native vegetation. Id. The pesticides used on vineyards
negatively impact habitat quality. AR 13053. Representatives from Heal the Bay testiﬁed that there is no
permanent ground water basin in the Santa Monica
Mountains, which means that viticulture uses compete
with residential wells for water. AR 12993. Vineyards
also scar the hillside, exposing sediment which erodes
into the streams. AR 12993.
The Commission also cites to several letters, statements, and analysis performed by the Commission
staff. These documents are not particularly persuasive,
as they primarily consist of conclusions by groups in

App. 74
favor of the vineyard ban without any discussion of
the evidence underlying those conclusions. County Supervisor Yaroslaysky, for example, submitted a letter in
support of the LUP, stating that vineyards lead to soil
erosion, stream and beach pollution, the spread of invasive species, the removal of natural habitat, and the
introduction of highly visible changes to the landforms
and natural landscape of the Santa Monica Mountains.
AR 2082, 2414. However, he does not address how he
came to those conclusions. Similarly, California State
Senator Pavley wrote an on April 1, 2014 letter in support of the vineyard ban, stating without any citation
or support that the increase in agricultural uses, including vineyards, was of concern due to the use of pesticides, terracing and grading, runoff of polluted soil,
and consumption of water. AR 1924-25. As with the
Heal the Bay letter, such conclusory statements are not
sufﬁcient on their own to constitute substantial evidence.
Petitioners’ supplemental brief does not address in
detail the potential harms caused by new vineyards –
soil erosion, stream sedimentation, habitat loss, displacement of natural vegetation, water pollution from
pesticides, the spread of non-native species, and the
visual impact to landforms. Instead, Petitioners dispute the draft LUP’s initial ban in the Santa Monica
Mountains of all agriculture, including vineyards, as
infeasible. Petitioners contend that vineyards can be
successfully grown in the Santa Monica Mountains.
Petitioner’s expert, Koutnik, expressly stated that
vineyards are successfully grown on the clay loam

App. 75
soil and steep slopes of the area. AR 7267. Petitioners
cite to the UCLA Study, which they characterize as unbiased, which states that 62.5% of the land in the
Santa Monica Mountains is suitable for vineyards. AR
8940. Even Heal the Bay, which is prejudiced against
vineyards, concludes that 62.5% of the land is suitable
for vineyard development. AR 1938. Pet. Supp. Br. at 7.
For protection under section 30250, land must be
both suitable for an agricultural use and feasible for
that use. The steep topography, poor soils, abundant
ESHA, sensitive watersheds, scenic considerations,
and lot size limitations render the majority of the
Santa Monica Mountains plan area unusable for agriculture. However, the UCLA Study indicates that
62.5% of the plan area is suitable for vineyard development, making such development an exception to the
plan area’s general unsuitability for agriculture.
But suitability does not make vineyard development feasible. “Feasibility” requires an evaluation of
environmental, social, and economic factors. It is not
enough to show that vineyards are suitable, Petitioners must also show that the record lacks substantial
evidence to support Commission’s claim that vineyards
are harmful to the plan area. The record contains evidence that new vineyard development would negatively impact the Santa Monica Mountains plan area.
In this regard, Petitioners completely ignore the UCLA
Study’s statement that vineyards have the potential to
severely disturb up to 74.5% of native vegetation in the
Santa Monica Mountains. AR 8940.

App. 76
Petitioners address the water supply and soil erosion issues associated with vineyard development by
pointing to statements in the record (author unstated)
that dry farming a limited irrigation practices can encourage roots to grow deeper to search for groundwater, grapevines use 70% less water than citrus and
avocado trees (AR 9150), and “cover cropping” (term
not explained) reduces top soil erosion. AR 9151.
Petitioners’ representative, Schmitz, also testiﬁed
that grapevines hold the slopes better than any other
type of agriculture and prevent erosion. AR 12999.
Schmitz stated that grapevines go down to an average
of 21 feet, and therefore hold the slopes better than any
other type of agriculture and prevent erosion. AR
12999. He also argued that 85% of California soil is
moisture rich enough to need no irrigation for grapevines. AR 12999.
Schmitz’s testimony was countered by Engel’s testimony. AR 13052. She stated that vineyards do not
provide as much soil stability as native vegetation, and
that, even if irrigation is not always necessary, vineyards still require pesticides, which pollute the air and
water. AR 13052.
Petitioners also argue that the application for, and
proposed designation of, the Santa Monica Mountains
as an AVA constitutes substantial evidence that vineyards are feasible in the Santa Monica Mountains.
Pet. Supp. Br. at 9-10. However, an AVA designation is
merely a descriptive classification that an area has
features such as climate, geology, or soil that make it

App. 77
distinctive for viticulture. 27 CFR §4.25(e)(2). The designation makes no ﬁndings about the environmental
harms caused by vineyards or the appropriateness of
their use. The AVA application and proposed designation does not support Petitioners’ claim that viticulture
is feasible because it does not counter Commission’s
evidence that viticulture is harmful to the ecosystem
and coastal resources of the Santa Monica Mountains.
There is substantial evidence that vineyards are
harmful to the Santa Monica Mountains ecology because they require clearing and scariﬁcation, increase
erosion and sedimentation, require pesticide use, and
constitute an invasive monoculture. Of these harms,
many are inherent to the nature of viticulture, and
there is no evidence that they could be mitigated. Vineyards increase erosion because the hillsides are
planted with grapes where the hillsides are bare during winter months and lack the root stratiﬁcation of
native vegetation. AR 13052. They create air pollution
from dust. Grapevines are an invasive monoculture
species that impact all of the surrounding vegetation
and harm riparian habitat. AR 818, 8707. They create
water runoff and sedimentation of streams. The only
impacts that could be mitigated is the use of pesticides,
which is already banned under the LCP, and water usage. Under these circumstances, substantial evidence
supports the Commission’s decision to ban new vineyards.
The Commission has provided scientiﬁc studies
and the testimony of experts from the hearing to support its conclusion that vineyards pose a threat to

App. 78
coastal resources and should be prohibited as part of
the LCP. Petitioners provide evidence demonstrating
that vineyards are suitable in the plan area, but fail
to counter the evidence of environmental harm. Substantial evidence supports the LCP’s ban on new
vineyard uses within the plan area, and there is no evidence that would compel the Commission to impose
mitigation as a lesser alternative.
G. Conclusion
The FAP is denied. Respondent Commission’s
counsel is ordered to prepare a proposed judgment,
serve it on Petitioners’ counsel for approval as to form,
wait ten days after service for any objections, meet and
confer if there are objections, and then submit the proposed judgment along with a declaration stating the
existence/non-existence of any unresolved objections.
An OSC re: judgment is set for November 28, 2017 at
1:30 p.m.

App. 79
Mountainlands Conservancy, Tentative decision on
petition for writ of
LLC, et al. v. California
mandate: denied
Coastal Commission,
BS 149063
[Filed: Sept. 5, 2017]
Petitioners Mountainlands Conservancy, LLC
(“Conservancy”), Third District Parklands, LLC
(“Parklands”), and Third District Meadowlands, LLC
(“Meadowlands”) seek a writ of mandate to compel
Respondent California Coastal Commission (“Coastal
Commission” or “Commission”) to set aside its certiﬁcation of the Santa Monica Mountains Local Coastal
Program (“LCP”).
The court has read and considered the moving papers, opposition,1 and reply, and renders the following
tentative decision.
A. Statement of the Case
Petitioners commenced this proceeding on June 9,
2014. The operative pleading is the First Amended

1

Petitioners’ opening brief and the Commissions opposition
are 20 and 23 pages, respectively. These oversized briefs were permitted by court order dated June 6, 2016.
The parties also lodged a four-volume Joint Appendix, utterly
defeating the purpose of a Joint Appendix – which is to include in
a single volume the pages of the Administrative Record upon
which the parties actually rely – by citing to and including the
entirety of lengthy documents. This requires the parties to pin
cite, not block cite, in their briefs. Counsel are directed to follow
a practice of pin citing in future mandamus cases.

App. 80
Petition (“FAP”), ﬁled December 9, 2014. The FAP alleges in pertinent part as follows.
In 2012 and 2013, the Commission and Los Angeles County (“County”) engaged in conversations to
draft a proposed LCP. On January 3, 2014, the County
gave notice that a draft LCP would be made available
to the public in advance of County hearings to be held
on February 11 and 18, 2014. The draft LCP categorically prohibited all new agriculture in the coastal zone.
At the February 11 and 18, 2014 hearings, the County
Board of Supervisors (“Board”) voted to submit the
draft LCP to the Commission for certiﬁcation.
On March 27, 2014, the Commission staff issued a
report on the submission of the proposed LCP (the
“Staff Report”). The Staff Report acknowledged that
“[t]he biological resource protection approach proposed
in the County’s Land Use Plan (“LUP”) designates
three habitat categories: H1, H2, and H3 Habitat. HI
and H2 habitats are designated by the proposed LUP
as Sensitive Environmental Resource Areas (“SERA”),
but the LUP does not explicitly deﬁne these areas as
Environmentally Sensitive Habitat Areas (“ESHA”) as
deﬁned by the Coastal Act. The LUP considers H3 areas to be developed or legally disturbed areas that are
not ESHA. Approximately 87.9% of the 50,000 acres
subject to the LUP is designated either H1 or 1-12.
Only about 12.1% of the 50,000 acres is designated H3.
The Staff Report’s ﬁndings indicated that “there
are very limited areas where agriculture is possible”
and those areas “are limited to the one or two areas in

App. 81
active agricultural production.” The Staff Report recommended that the Commission deny certiﬁcation of
the LUP as submitted by the County but approve the
LUP subject to sixty suggested modiﬁcations. One of
the changes recommended in the Staff Report reiterated the LUP’s prohibition of new agricultural uses,
but clariﬁed that existing non-livestock agricultural
uses would be allowed to continue but not expand.
On April 7, 2014, Petitioners submitted a letter to
the Commission explaining why they believed the proposed LUP was not consistent with Chapter 3 of the
Coastal Act. The letter presented evidence that large
portions of the area governed by the proposed LUP
were suitable for agriculture.
On April 9, 2014—the day before the scheduled
hearing on the LUP—the Commission’s staff issued
an addendum to its Staff Report (“Addendum”). The
Addendum recommended new modiﬁcations to the
previously categorical ban on new agriculture. The Addendum retained a categorical ban on new vineyards,
but recommend that some new agricultural uses be
permitted subject to a series of onerous conditions. The
Addendum recommended that new agriculture would
be allowed only if organic or biodynamic farming practices were followed. New agriculture would be allowed
only in extremely restricted areas, including natural
slopes of 3:1 or less in I-13 habitat areas and slopes of
3:1 or less in the building site area allowed by Policy
CO-51 and Fuel Modiﬁcation Zones A and B.

App. 82
On April 10, 2014 Petitioners submitted a letter
to the Commission and appeared at the Commission
hearing on the same date to state their opposition to
the LUP. Petitioners indicated that various parties had
raised substantial issues with respect to the proposed
LUP’s conformity to Chapter 3 of the Coastal Act and
that certiﬁcation of the LUP without an additional
hearing before the full Commission would be premature and a violation of the Coastal Act. The Commission then approved and certiﬁed the proposed LUP
subject to the modiﬁcations suggested in the Staff Report, the modiﬁcations suggested in the Addendum,
and a few additional modiﬁcations developed at the
hearing.
On June 26, 2014, the Commission Staff issued a
report on the proposed Local Implementation Program
(“LIP”) for the LCP. This report recommended that the
Commission reject the LIP as presented by the County
and certify it with some mostly minor modiﬁcations.
On July 7, 2014, counsel for Petitioners submitted
a letter to the Commission objecting to the proposed
LIP. This letter contended that the proposed LIP was
inadequate to carry out the provisions relating to agriculture because the proposed LIP provided no deﬁnition of “biodynamic farming” and was imprecise as to
provisions such as its ban on the use of “synthetic” pesticides. The Commission subsequently approved the
LIP subject to the recommended modiﬁcations.
On August 26, 2014, the County issued a resolution adopting the both the LUP and LIP portions of the

App. 83
LCP as modiﬁed by the Commission and directing the
transmittal of the LCP to the Commission for ﬁnal certiﬁcation. On October 10, 2014, the Commission issued
its ﬁnal certiﬁcation of the LCP.
Petitioners allege that the Commission’s decision
to certify the LCP was an abuse of discretion because
it failed to proceed in the manner required by law.
Even with the modiﬁcations suggested by the April 9,
2014 Addendum to the Staff Report, there were substantial issues raised as to the proposed LUP’s conformity with the policies of Chapter 3 of the Coastal
Act. As a result, the Commission was required to conduct a further hearing on those issues and failed to do
so.
The Commission further failed to proceed in a
manner required by law when it considered the Addendum, which was made available to the public less than
24 hours prior to the April 10, 2014 hearing. Petitioners allege that this action by the Commission deprived
the public of a meaningful opportunity to address the
new ﬁndings and policies in the Addendum.
Petitioners further allege that the Commission’s
decision to certify the LUP also was invalid because
the ﬁndings are not supported by the evidence. The
Staff Report’s ﬁndings indicate that “there are very
limited areas where agriculture is possible” and that
those areas “are limited to the one or two areas in active agricultural production.” Petitioners and others
submitted evidence that large areas other than areas
in current agricultural production are suitable for

App. 84
agriculture. Moreover, the Commission was not presented with sufﬁcient evidence on which to allow only
organic or biodynamic farming and prohibit conventional forms of agriculture. The Commission also was
not been presented with sufﬁcient evidence to justify a
categorical prohibition of vineyards as opposed to other
types of agriculture.
B. Standard of Review
CCP section 1094.5 is the administrative mandamus provision which structures the procedure for judicial review of adjudicatory decisions rendered by
administrative agencies. Topanga Ass’n for a Scenic
Community v. County of Los Angeles, (“Topanga”)
(1974) 11 Cal.3d 506, 514-15.
CCP section 1094.5 does not in its face specify
which cases are subject to independent review, leaving
that issue to the courts. Fukuda v. City of Angels,
(1999)20 Cal.4th 805, 811. In cases reviewing decisions
which affect a vested, fundamental right the trial court
exercises independent judgment on the evidence.
Bixby v. Pierno, (1971) 4 Cal.3d 130, 143. See CCP
§ 1094.5(c). In other cases, the substantial evidence
test applies. Mann v. Department of Motor Vehicles,
(1999) 76 Cal.AppAth 312, 320; Clerici v. Department
of Motor Vehicles, (1990) 224 Cal.App.3d 1016, 1023.
Decisions of the Coastal Commission are governed by
the substantial evidence standard, Ross v. California
Coastal Comm., (“Ross”) (2011) 199 Cal.App.4th 900,
921.

App. 85
“Substantial evidence” is relevant evidence that a
reasonable mind might accept as adequate to support
a conclusion (California Youth Authority v. State Personnel Board, (“California Youth Authority”) (2002)
104 Cal.App.4th 575, 585) or evidence of ponderable
legal signiﬁcance, which is reasonable in nature, credible and of solid value. Mohilef v. Janovici, (1996) 51
Cal.App.4th 267, 305, n.28. The petitioner has the burden of demonstrating that the agency’s ﬁndings are not
supported by substantial evidence in light of the whole
record. Young v. Gannon, (2002) 97 Cal.App.4th 209,
225. The trial court considers all evidence in the administrative record, including evidence that detracts
from evidence supporting the agency’s decision. California Youth Authority, supra, 104 Cal.App.4th at 585.
The agency’s decision must be based on the evidence presented at the hearing. Board of Medical Quality Assurance v. Superior Court, (1977) 73 Cal.App.3d
860, 862. The Commission is only required to issue
ﬁndings that give enough explanation so that parties
may determine whether, and upon what basis, to review the decision. Topanga, supra, 11 Cal.3d at 514-15.
Implicit in CCP section 1094.5 is a requirement that
the agency set forth ﬁndings to bridge the analytic gap
between the raw evidence and ultimate decision or order. Topanga, 11 Cal.3d at 515.
The court may reverse the Commission’s fact decision only if, based on the evidence before it, a reasonable person could not have reached the Commission’s
conclusion. Ross, supra, 199 Cal.App.4th at 922; Balsa
Chica Land Trust v. Superior Court, (“Bolsa Chica”)

App. 86
(1999) 71 Cal.App.4th 493, 503. The court may not disregard or overturn an administrative ﬁnding of fact
simply because it considers that a contrary ﬁnding
would have been equally or more reasonable. Boreta
Enterprises Inc. v. Department of Alcoholic Bev. Control, (1970) 2 Cal.3d 85, 94. Any reasonable doubts
must be resolved in favor of the Commission. Paoli v.
California Coastal Comm., (1986) 178 Cal.App.3d 544,
550; City of San Diego v. California Coastal Comm.,
(1981) 119 CalApp.3d 228, 232.
The court independently reviews questions of law,
including statutory interpretation. McAllister v. California Coastal Commission, (“McAllister”) (3008) 169
CalApp.4th 912, 921-22, Given its Commission’s special familiarity with the regulatory and legal issues,
the Commission’s interpretation of the statutes and
regulations under which it operates is entitled to deference. Ross v. California Coastal Comm., supra, 199
Cal.App.4th at 938; Hines v. California Coastal Comm.,
(2010) 186 Cal.App.4th 830, 849.
An agency is presumed to have regularly performed its ofﬁcial duties (Evid. Code §664), and the petitioner therefore has the burden of proof. Steele v. Los
Angeles County Civil Service Commission, (1958) 166
Cal.App.2d 129, 137. “[T]he burden of proof falls upon
the party attacking the administrative decision to
demonstrate wherein the proceedings were unfair, in
excess of jurisdiction or showed prejudicial abuse of
discretion. Afford v. Pierno, (1972) 27 Cal.App.3d 682,
691.

App. 87
C. Coastal Act
1. Purpose
The Coastal Act of 1976 (Pub. Res. Code2 §30000 et
seq.,) (the “Coastal Act” or the “Act”) is the legislative
continuation of the coastal protection efforts commenced when the People passed Proposition 20, the
1972 initiative that created the Coastal Commission.
See Ibarra v. California Coastal Comm., (“Ibarra”)
(1986) 182 Cal.App.3d 687, 693. One of the primary
purposes of the Coastal Act is the avoidance of deleterious consequences of development on coastal resources. Paciﬁc Legal Foundation v. California Coastal
Comm., (1982) 33 Cal.3d 158, 163. The Supreme Court
described the Coastal Act as a comprehensive scheme
to govern land use planning for the entire coastal zone
of California, Yost v. Thomas, (1984) 36 Cal.3d 561, 565.
The Act must be liberally construed to accomplish its
purposes and objectives. §30009.
The Coastal Act’s goals are binding on both the
Commission and local government and include: (1)
maximizing, expanding and maintaining public access
(§§ 30210-14); (2) expanding and protecting public recreation opportunities (§§ 30220-24); 3) protecting and
enhancing marine resources including biotic life
(§§ 30230-37); and (4) protecting and enhancing land
resources (§§ 30240-44). The supremacy of these
statewide policies over local, parochial concerns is a
primary purpose of the Coastal Act, and the
2

All further statutory references are to the Public Resources
Code unless otherwise stated.

App. 88
Commission is therefore given the ultimate authority
under the Act and its interpretation. Pratt Construction Co. v. California Coastal Comm., (2008) 162
Cal.App.4th 1068, 1075-76.
2. Chapter 3 Policies
The Coastal Act includes a number of coastal protection policies, commonly referred to as “Chapter 3
policies,” which are the standards by which the permissibility of proposed development is determined.
§30200(a). The Coastal Act must be liberally construed
to accomplish its purposes (§30009), and any conﬂict
between the Chapter 3 policies should be resolved in a
manner which on balance is the most protective of signiﬁcant coastal resources. §30007.5.
The Coastal Act provides for heightened protection of ESHAs, deﬁned as “any area in which plant or
animal life or their habitats are either rare or especially valuable because of their special nature or role
in an ecosystem and which could be easily disturbed or
degraded by human activities and developments.”
§30107.5. ESHAs “shall be protected against any signiﬁcant disruption of habitat values, and only uses dependent on those resources shall be allowed within
those areas. §30240(a). Development in areas adjacent
to EHSAs shall be sited and designed to prevent impacts which would signiﬁcant degrade those areas, and
shall be compatible with the continuance of those habitat and recreation areas. Id. Thus, the Coastal Act
places strict limits on the uses which may occur in an

App. 89
ESHA and carefully controls the manner in which uses
around the EST-IA are developed. Bolsa Chica, supra,
71 Cal.App.4th at 506-08. See also Feduniak v. California Coastal Commission, (2007) 148 Cal.App.4th 1346,
1376.
Other pertinent Chapter 3 policies include the
protection of marine life (§30230), the biological
productivity and quality of coastal waters, streams,
lands, and estuaries (§30231), and the scenic and visual qualities of coastal areas. §30251. Where conﬂicts
occur between one or more Chapter 3 policies of the
Coastal Act, the conﬂict shall be resolved in a manner
which on balance is the most protective of signiﬁcant
coastal resources. §30007.5.
3. The LCP
Because local areas within the coastal zone may
have unique issues not amenable to centralized administration, the Coastal Act “encourage[s] state and local
initiatives and cooperation in preparing procedures to
implement coordinated planning and development” in
the coastal zone. §30001.5; Ibarra, supra, 182
Cal,App.3d at 694-96. To that end, the Act requires
that “each local government lying, in whole or in part,
within the coastal zone” prepare a LCP. §30500(a). The
Coastal Act deﬁnes a LCP as:
“a local government’s (a) land use plans, (b)
zoning ordinances, (c) zoning district maps,
and (d) within sensitive coast resource areas,
other implementing actions, which, when

App. 90
taken together, meet the requirements of, and
implement the provisions and policies of this
division [the Coastal Act] at the local level,”
§30108,6.
Similar to a local government’s general plan, the
LCP provides a comprehensive plan for development
within the coastal zone with a focus on preserving and
enhancing the overall quality of the coastal zone environment as well as expanding and enhancing public
access. Citizens of Goleta Valley v. Board of Supervisors, (1990) 52 Cal.3d 553, 571. A local government
must prepare its LCP in consultation with the Commission and with full public participation. §§ 30500(a),
(c), 30503; McAllister, swpra, 169 Cal.App.4th at 930,
953. The LCP consists of a LUP3 and the implementing
actions of zoning ordinances, district maps, and other
implementing actions (LIP). Yost v. Thomas, supra, 36
Cal.3d at 571-72. These may be prepared together or
sequentially, and may be prepared separately for separate geographical areas or “segments” of a local
coastal zone. §30511.
When a local government completes its draft LCP,
it is submitted to the Commission for certiﬁcation.
§30510. The Coastal Commission reviews the LUP for
consistency with the Chapter 3 Coastal Act policies,
3

The LUP is deﬁned in section 30108.5 as: “[T]he relevant
portions of a local government’s general plan, or local coastal element which are sufﬁciently detailed to indicate the kinds, location, and intensity of land uses, the applicable resource protection
and development policies and, where necessary, a listing of implementing actions.”

App. 91
§§ 30512(c), 30512.2. The Commission determines
whether to certify the proposed LUP as submitted, or
whether it raises “substantial issues” that necessitate
further hearing. §30512(a). For any aspects of the LUP
that are not certiﬁed as submitted, the Commission
may certify them conditioned upon the incorporation
of suggested modiﬁcations. §30512(b). Where amendments are made to an already-certiﬁed LUP, the Commission proceeds in nearly the same manner except
that the Commission shall make no determination
whether a proposed LUP amendment raises a substantial issue of conformance with Chapter 3 policies.
§30514(b).
The Coastal Commission reviews the LIP, and any
amendments to a certiﬁed-LIP, for conformity with the
LUP. §30513. It may reject an LIP only if it does not
conform with or is inadequate to carry out the LUP.
§§ 30513, 30514.
Once the Commission has certiﬁed the LCP, the
Commission delegates its permit-issuing authority to
the local government. §30519.

App. 92
D. Statement of Facts4
1. Background
The County’s Santa Monica Mountains coastal region is an unincorporated area between the city of Los
Angeles, the City of Malibu, and the County of Ventura.
4

In reply, Petitioners ask the court to judicially notice pages
from two websites: (1) a USDA National Agricultural Statistics
Service document for the 2013 Crop Year (Ex, 1), (2) a California
Department of Food and Agriculture statistical review document
for 2012-13 (Ex. 2). Petitioners do not ask the court to judicially
notice Exhibit 3, a page from a John Dunham & Associates website entitled “2015 Economic Impact Report on Wine”, although it
is referred to in an authenticating declaration.
The court may judicially notice a government website page
depending on the nature of the document. Evict. Code §452(c); see
Ampex Corp. v. Cargle, (2005) 128 Cal.App.4th 1569, 1573, n.2
(Internet documents amenable to judicial review to the extent the
records are “ . . . not reasonably subject to dispute and rare] capable of immediate and accurate determination by resort to sources
of reasonably indisputable accuracy.”). Exhibits 1 and 2 are such
documents. Exhibit 3 is a trade document from a company website. The existence of a company’s website may be judicially noticed. Ev. Code §452(h); Gentry v. eBay, Inc., (2002) 99
Cal.App.4th 816, 821 n,1. But the court may not accept its contents as true. See Ragland v. U.S. Bank Nat. Assn., (2012) 209
Cal.App.4th 182, 193.
The court would judicially notice Exhibits 1 and 2, but not
Exhibit 3, except that they are offered for the ﬁrst time in reply.
Nothing in Exhibits 1 and 2 is responsive to an issue raised in the
Commission’s opposition. Rather, all three exhibits are presented
as an offer of proof as to what Petitioners would have shown in
part if given an additional Commission hearing and opportunity
to respond to the Addendum. New evidence/issues raised for the
ﬁrst time in a reply brief are not properly presented to a trial
court and may be disregarded. Regency Outdoor Advertising v.
Carolina Lances, Inc., (1995) 31 Cal.App.4th 1323, 1333. The requests for judicial notice are denied.

App. 93
In 1986, the County’s Board of Supervisors (“Board of
Supervisors”) adopted an LUP for Santa Monica
Mountains area as part of a proposed LCP. AR 9403.
The Coastal Commission subsequently certiﬁed the
LUP, but no LIP was certiﬁed. AR 9403-04.
Without a complete and certiﬁed LCP, the Commission retained jurisdiction over development and
land use in the Santa Monica Mountains. All applicants for coastal development permits (“CDPs”) in the
region were required to do so directly from the Coastal
Commission, not from the County. AR 9403.
In 2007, the County’s Regional Planning Commission recommended approval of a proposed LCP for the
Santa Monica Mountains region, including an updated
LUP and a proposed LIP. AR 9403-04. The County’s
Board of Supervisors conducted a public hearing, indicating its intent to approve the LCP with modiﬁcations. AR 9404. The County did not submit the 2007
proposal to the Commission, and it was never certiﬁed.
AR 9404.
In 2012, the Coastal Commission encouraged certiﬁcation of previously uncertiﬁed portions of the
state’s coastal regions and began working with local
agencies to update existing coastal plans. AR 9404. The
Commission and the County engaged in a series of negotiations to reformulate the County’s 2007 proposed
Santa Monica Mountains LCP to be more consistent
with current Commission practices. AR 9404.

App. 94
2. Draft LCP
a. Procedural Process
On January 3, 2014, the County gave public notice
that the Board of Supervisors would consider a draft
LCP at a public hearing to be held in February 2014.
AR 1024-25. On February 11, 2014, the Board of Supervisors held a public hearing on the proposal and, on
February 18th, voted to approve the LCP and submit
it to the Commission for certiﬁcation. AR 9404.
On February 19, 2014, the County formally submitted to the Commission a proposed Santa Monica
Mountains area LCP. AR 3. The Board of Supervisors
Resolution found that no State-designated prime agricultural land existed in the relevant area on private
land; all prime agricultural land was publicly owned.
AR 10.
b. County’s Findings
The County’s discussion of the proposed LCP
states that agricultural uses are proposed for restriction. AR 818. The Coastal Act protects prime agricultural lands and lands which are suitable for
agricultural use. AR 818. There are no signiﬁcant areas of prime farmland in the LCP area. AR 818. The
majority of the prime farmland is located on publicly
owned King Gillette Ranch, which will not be developed with agricultural uses. AR 818. As for suitable agriculture use, a number of factors accompany the
determinate of suitability, including land use compatibility, water availability, detrimental secondary effects,

App. 95
and economic feasibility. AR 818. The water scarcity in
the Santa Monica Mountains alone would dictate caution in allowing agricultural uses. AR 818. Agricultural
species also interfere with native plants and are consumed by native animals when their spread cannot be
controlled. AR 818. For these reasons, the County
elected to respect the vineyards and crop areas already
in existence, but to prohibit any expansion of agricultural uses in the future. AR 818.
c. Technical Studies
As part of the LCP, the County submitted a “Proposed Santa Monica Mountains Appendices” dated
January 2014 (“Appendices”). AR 578. The Appendices
contained studies prepared specially for the LCP, including reports on: (1) ESHA (“Biota Report”) (AR 582724); (2) Signiﬁcant Watersheds (AR 725-34); (3) Historical and Cultural Resources (AR 735-39); (4) Geotechnical Resources (AR 740-50); (5) Signiﬁcant
Ridgelines (AR 751-57); (6) Air Quality (AR 758-66); (7)
Transportation (AR 767-69); and (8) Stormwater Pollution Mitigation Best Management Practices (AR
770-72).
The County commissioned the Biota Report to review the EHSA designations in the Santa Monica
Mountains area and to ensure that the land-use restrictions in the LCP reﬂect actual environmental conditions. AR 587. The ﬁndings and recommendations of
the Biota Report were incorporated into the LCP. AR
592.

App. 96
The Biota Report noted that the Santa Monica
Mountains are an arid environment, where seeps and
springs provide scarce water to support rare plants
and amphibians. AR 600. Six ecological communities
fully met the ESHA criteria in the Coastal Act, while
most of the remaining habitats satisﬁed at least one
ESHA criterion. AR 632. Years of scattered development in the plan area had led to various forms of degradation
of
natural
communities,
including
replacement of native plants with exotic landscaping,
irrigation facilitating invasion of natural areas by
harmful exotic ants, and increased use of pesticides,
particularly for viticulture. AR 64546. Maintaining the
ecological integrity of the plan area “requires the development, adoption, and enforcement of a wide range
of appropriate policies and regulations . . . to lessen the
impact of human disturbance.” AR 646.
The Biota Report acknowledged that, for the past
decade, the Commission has delineated nearly all undeveloped land in the Santa Monica Mountains coastal
zone as ESHA. AR 583. However, after performing a
comprehensive analysis of the biodiversity in the
Santa Monica Mountains, the Biota Report determined
that only “roughly 6,000 acres . . . in the Study Area
satisfy the ESHA criteria in Section 30107.5.” AR 583.
In addition to the ESHA designation, the Biota Report
proposed two additional resource-protection designations: (1) “stewardship habitat", meaning areas that
are not ESHA but still provide high ecological value;
and (2) “restoration habitat", meaning habitat that
likely satisﬁed ESHA criteria in the past, but is

App. 97
periodically disturbed for authorized or mandated activities such as ﬁre and ﬂood control. “Since habitat
disturbance is incompatible with the very deﬁnition of
ESHA, such areas cannot be properly designated as
ESHA.” AR 583.
The Signiﬁcant Watershed Report states that one
of the primary functions of the LCP is to maintain and
improve water quality. AR 726. The Santa Monica
Mountains are incised by a number of drainage systems that have been organized into 19 named watersheds. AR 727. In addition to the named watersheds,
there are a potentially incalculable number of drainages leading to the ocean. AR 727.
The Signiﬁcant Ridgelines Report states that the
natural beauty of the Santa Monica Mountains is one
of its most distinctive and valuable attributes. AR 751.
The topography, including sandstone peaks, chaparralcovered hillsides, and extensive ridgelines, is a valuable scenic resource. AR 751. Any form of physical alteration on or close to the top of a Signiﬁcant Ridgeline
has immediate and noticeable effect. AR 751.
3. The LUP
a. Staff Report
On March 27, 2014, the Commission’s staff issued
a Staff Report recommending denial of the LUP as submitted, but approval of the LUP subject to 60 suggested modiﬁcations. AR 1532.

App. 98
i.

Introduction

The Staff Report noted that the proposed LUP prohibits any new crop-based agriculture in the Santa
Monica Mountains. AR 1536. The LUP also does not
designate any areas for exclusive agricultural use. AR
1536.
A very large percentage of soils in the Santa Monica Mountains are rocky and steeply sloping, contain
sensitive habitat, and are therefore not suitable for
crop-based agriculture. AR 1536. The only areas containing suitable prime agricultural soils are located
within existing public parkland areas. AR 1536. The
conﬂuence of factors within the Santa Monica Mountains -including the steep slope, poor soil, scenic considerations, sensitive watersheds, abundant ESHA,
and lot size limitations – render the majority of land
unsuitable for agricultural use. AR 1537.
The Department of Conservation designates
Farmlands of Statewide Importance, which is similar
to Prime Farmland but with minor shortcomings.
There are no designated Farmlands of Statewide Iimportance [sic] in the Santa Monica Mountains area. AR
1536. Another Department of Conservation designation is Unique Farmland, which is a designation for
lesser quality soils used for the production of agricultural crops. AR 1536. The Staff report identiﬁed one
small area that is Unique Farmland – a commercial
vineyard planted in the 1980’s and encompassing approximately 25 acres. AR 1536. There is another area
of commercial vineyards that straddles the coastal

App. 99
zone boundary, but the majority of vineyards on this
ranch are outside the coastal zone. AR 1536. There are
also small scale hobby vineyards located within irrigated fuel modiﬁcation zones that are not economically
viable and do not warrant protection under the Coastal
Act. AR 1537.
ii. Suggested Modifications
The Staff Report’s Suggested Modiﬁcation 27 was
to revise Policy CO-102 to state that “New crop, orchard,
vineyard, and other crop-based non-livestock agricultural uses are prohibited. Existing, legally-established
agricultural uses shall be allowed to continue, but may
not be expanded.” AR 1557.
Suggested Modiﬁcation 28 was to add a new policy
that would provide as follows: “Existing, legally-established, economically-viable crop-based agricultural
uses on lands suitable for agricultural use shall not be
converted to non-agricultural use unless (1) continued
or renewed agricultural use is not feasible, or (2) such
conversion would preserve prime agricultural land on
concentrate development consistent with Policy LU-1.”
AR 1557-58.
Suggested Modiﬁcation 29 would revise Policy LU11 to read as follows: “Prohibit new crop, orchard, vineyard, and other crop-based non-livestock agricultural
uses, however, existing, legally-established agricultural uses shall be allowed to continue, but may not be
expanded in order to preserve natural topography and
locally-indigenous vegetation, and to prevent the

App. 100
loading of soil and chemicals into drainage courses.”
AR 1558.
iii. Agriculture Findings
The Staff Report reviewed sections 30241 and
30242 of the Coastal Act, which protect agricultural
lands within the coastal zone by, in part, requiring that
the maximum amount of prime agricultural land be
maintained in production. AR 1618. The Coastal Act
deﬁnes “prime agricultural land” as land meeting the
criteria set forth in the Government Code. AR 1618.
The four prongs are: (1) All land that qualiﬁes for rating as class I or class II in the Natural Resources Conservation Service land use capability classiﬁcations;
(2) Land which qualiﬁes for rating 80 through 100 in
the Stone Index Rating; (3) Land which supports livestock used for the production of food and ﬁber and
which has an annual carrying capacity equivalent to
at least one animal unit per acre as deﬁned by the
United States Department of Agriculture; and (4) Land
planted with fruit or nut bearing trees, vines, bushes,
or crops which have a nonbearing period of less than
ﬁve years and which will normally yield at least $200
per acre annually from the production of unprocessed
agricultural plant production. AR 1618.
With respect to the ﬁrst prong, there are no NRCS
Class I soils in the plan area. AR 1618. For the second
prong, there are very few NRCS Class II and 80-100
Storie Index rated soils in the plan area, and none are
currently in existing agricultural production. AR 1618.

App. 101
The areas containing such prime soils constitute less
than 2% of the entire plan area, and the majority of the
prime farmland soils are contained within public parkland areas or an existing gold club. AR 1618. As for the
third prong of the prime agricultural land deﬁnition,
the Staff Report found that there are no active cattle
ranches or agricultural grazing grounds within the
plan area. AR 1619.
For the fourth prong, while the area has a long rural history, there are very few areas in existing agricultural use due to the steep mountain topography and
lack of suitable agricultural soils. AR 1619. The only
areas in agricultural production are limited vineyard
areas encompassing a small percentage of the plan
area. AR 1619. Only two commercial vineyards meet
the productivity requirements for prime agricultural
land, with the remaining vineyards in the plan area
being a limited number of small “hobby” vineyard plots
(less than 2 acres) that are accessory to single-family
residences and not commercially viable. AR 1619.
Given that the limited prime agricultural land
within the Santa Monica Mountains area is mostly either public parkland or developed with existing uses
and not in agricultural production (other than the two
identiﬁed commercial vineyards), Commission staff
found that the mandate of section 30241 to maintain
the maximum amount of prime agricultural land in agricultural production was not applicable in the plan
area. AR 1620.

App. 102
The Staff Report next examined whether any agricultural land in the plan area qualiﬁed for section
30242’s provisions that 101 other lands suitable for agricultural use shall not be converted to nonagricultural
uses unless (1) continued or renewed agricultural use
is not feasible, or (2) such conversion would preserve
prime agricultural land or concentrate development
consistent with Section 30250.” AR 1620. The Staff Report found that a large percentage of the plan area consists of steep slopes and poor soils that are unsuitable
for agriculture. AR 1620. Water availability in the plan
area is limited. AR 1620. These factors make viable
livestock grazing infeasible, and the cultivation of
vineyards either infeasible or extremely difﬁcult and
costly. AR 1620.
In addition, there are signiﬁcant biological and
scenic resources within the Santa Monica Mountains
area. AR 1620. The majority of the plan area that is
undeveloped consists of publicly-owned parkland and
open space or ESHA. Activities such as vineyards can
have signiﬁcant adverse impacts on the biological integrity of the mountain environment and receiving waterbodies. AR 1620. Agricultural uses could also
signiﬁcantly impact scenic resources. AR 1620. Finally,
where there are small patches of land that can support
agricultural use, they are not large enough to be commercially viable. AR 1620.
There are certain limited areas where agriculture
is possible, but those areas are already in active agricultural production. AR 1620. In order to provide for
the continuation of agricultural uses consistent with

App. 103
section 30242, the Staff Report stated that those lands
should not be converted into non-agricultural use. AR
1620. Suggested Modiﬁcation 28 is necessary to limit
the conversion of those lands to non-agricultural use.
AR 1620.
b. Comments on the Staff Report
i.

Heal the Bay

Heal the Bay expressed concern that vineyards
are harmful to sensitive habitats due to water use,
sediment inputs, and polluted runoff. AR 1936. Heal
the Bay’s expert has observed the impacts of nearby
vineyards on amphibian habitats in the Santa Monica
Mountains. AR 1936. Waters downstream from vineyards show increased sediment levels as compared to
equivalent sites in open space. AR 1938. This sediment
negatively impacts the amphibian health in the
steams. AR 1938.
ii. Coastal Coalition of Family Farmers
The Coastal Coalition of Family Farmers (“Farmers Coalition”) submitted a letter challenging the Staff
Report’s analysis of the current agricultural uses in
the plan area. AR 1985. The Coalition’s attorney argued that the Staff Report did not provide any data
about possible agricultural expansion. AR 1985. The
Commission did not consult with other state agencies
in determining whether the Santa Monica Mountains
contain prime agricultural land. AR 1985. The Staff

App. 104
Report also did not analyze the viability of agriculture
in the plan area. AR 1985.
iii. Petitioners
On April 7, 2014, Petitioners submitted a letter
contending that the proposed LUP was inconsistent
with the Coastal Act’s Chapter 3 policies because it
barred agricultural development, a preferred and protected use. AR 2438. Petitioners challenged the Staff
Report’s ﬁnding that the only prime agricultural land
within the Santa Monica Mountains is parkland or developed with existing uses. AR 2440. Petitioners
claimed to be aware of at least one property within the
coastal zone containing a deed restriction indicating
the presence of prime agricultural land on that property. AR 2440. Petitioners challenged the Staff Report’s
ﬁndings as speculative, and stated that it contains no
information on the amount of land within the coastal
zone currently under cultivation and no persuasive explanation why there is no additional land in the plan
area that is suitable for agriculture. AR 2440. Petitioners’ letter requested that the Commission either deny
certiﬁcation or schedule an additional public hearing
to consider the substantial issues Petitioners had identiﬁed regarding the proposed LUP’s conﬂicts with
Chapter 3. AR 2443.

App. 105
Petitioners’ letter presented an expert report by
Daryl Koutnik (“Koutnik”)5 regarding agricultural
uses in the Santa Monica Mountains (AR 7165-68), a
Soil Survey of Santa Monica Mountains National Recreation Area (“Soil Survey”) (AR 7599-7911), a United
States Department of Agriculture Soil Candidate Listing for Prime Farmland and Farmland of State Importance (“Soil Candidate Listing”) (AR 7914-79171),
and a National Park Service Vegetation Classiﬁcation
of the Santa Monica Mountains. AR 8172-8706.
The Soil Survey concluded that about 3,470 acres,
or less than 2% of the survey area, would meet the requirements for prime farmland if an adequate and dependable supply of irrigation water were available. AR
7568. The Soil Candidate Listing identiﬁed nine soil
units within the Santa Monica Mountains that could
be considered Prime Farmland. AR 7920. The study
also identiﬁed three soil units that qualiﬁed as Farmland of Statewide Importance. AR 7923.
Koutnik provided a list of soil types within the
Santa Monica Mountains suitable for agriculture. AR
7265-66. He concluded that the Staff Report’s dismissal of agricultural uses in the plan area based on soil
type and slope does not correspond to current successful agricultural operations in the area. AR 7267. Modern agricultural practices may be successful in
growing certain crops or enabling livestock to graze on
5

Koutnik states that he is a principal in “Biological and Environmental Compliance”, but does not otherwise provide his credentials as an expert. AR 7265.

App. 106
a variety of the Santa Monica Mountain’s soil types
and slope steepness. Water quality and erosion concerns could be addressed by farming and engineering
techniques. The staff ’s proposed limitation of agricultural uses in the Santa Monica Mountains to only
those designated by the Department of Conservation
based on soil types or current operation while prohibiting such use for other properties in the plan area that
have been historical used for agriculture is a substantial and unwarranted change. AR 7265-68.
iv. Hogrefe
On April 7, 2014, Scott J. Hogrefe (“Hogrefe”), a
consulting geologist on many properties along the
Santa Monica Mountains, submitted a letter to the
Commission disagreeing with the Staff Report. AR
8730-31. In Hgrefe’s opinion, the vast majority of sites
across the Santa Monica Mountains contain good to
excellent soil conditions for agricultural purposes. AR
8730. The Mediterranean climate in the Santa Monica
Mountains is ideally suited to agriculture, and soil conditions and topographic conditions allow for sustainable agriculture use. AR 8730.
c. The Addendum
On April 9, 2014, Commission staff issued an Addendum to the Staff Report for the LCP, which was
scheduled for public hearing before the Commission
the next day. AR 1906. The Addendum addressed concerns raised by members of the public and various

App. 107
groups regarding the LCD’s proposed prohibition of
new crop-based agriculture in the plan area. AR 1906.
In this Addendum, Commission staff noted that it had
received 66 letters concerning the Staff Report, and attached some of them, including Petitioners’ April 7,
2014 letter concerning agricultural restrictions. AR
1906, 1993. Commission staff had conferred with
County staff regarding these agriculture concerns, and
proposed changes to Modiﬁcations 27, 29, and 54. AR
1906. Because of the volume of comments received, the
Addendum was more than 170 pages long. AR 19062084. However, the analysis of recommended changes
comprised less than 12 pages. AR 1906-17. The remaining pages were correspondence. AR 1906-2084.
In light of the comments received, Commission
staff recommended that Policy CO-102/LU-11 be modiﬁed to allow new agricultural uses that met the following criteria: (1) the new agricultural uses are
limited to speciﬁed areas on natural slopes of 3:1 or
less steep, or areas currently in legal agricultural use;
(2) new vineyards are prohibited; and (3) organic or biodynamic farming practices are followed. AR 1909. The
Commission staff removed the prohibition on expanding agricultural uses, and recommended that existing
legal agricultural uses may be expanded consistent
with the above criteria. AR 1909.
Commission staff recognized that the continuation
of agricultural uses are encouraged under the Coastal
Act if they can be accomplished consistent with other
Chapter 3 policies. AR 1910. The new ﬁndings justiﬁed
the allowance for new agriculture because “small-scale

App. 108
crop-based agricultural operations (with the exceptions of vineyards) can avoid adverse impacts to biological resources and water quality,” if “organic and
biodynamic farming practices are followed.” AR 1910.
Staff explained that “organic and biodynamic farming
practices are required to prevent the use of pesticides,
herbicides, and fertilizers, which can adversely impact
the biological productivity of coastal waters and human health.” AR 1910. New vineyards would remain
prohibited due to a number of identiﬁed adverse impacts attributed speciﬁcally to those operations, including increased erosion from removal of all
vegetation, use of pesticides, large amounts of water
required, their invasive nature, and their adverse impact to scenic views. AR 1910-11.
d. Petitioners’ Response to the Addendum
On April 10, 2014, the date of the Commission
hearing, Petitioners submitted a letter in response to
the Addendum. AR 8739. Petitioners argued that certiﬁcation of the proposed LUP, as revised by the Commission staff ’s Addendum, would violate the Coastal
Act’s policy of maximizing public participation in the
process. Allowing the public and affected parties less
than 24 hours to review and respond to the Addendum
does not maximize public participation as required by
section 30503. AR 8739-40.
Petitioners also stated that the proposed LUP,
even though modiﬁed by the Addendum to permit
some agricultural use, presented substantial issues

App. 109
regarding conformity with the Coastal Act. The proposed LUP as revised by the Addendum would allow
new agriculture only in certain H3 habitat areas, with
two limited exceptions. AR 8740. A map shows that the
bulk of the area in the Santa Monica Mountains area
is designated H1 or H2, with only a tiny fraction of
land designated as H3. AR 8740. The revised LUP
would therefore still exclude new agriculture from the
vast majority of the plan area. AR 8740. Yet, Petitioners’ expert, Hogrefe, concludes that the vast majority
of land in the plan area is suitable for agricultural use.
AR 8741. By designating land available for agricultural use as H1 and H2 habitat, the revised LUP conﬂicts with section 30242’s policy against conversion of
land suitable for agriculture to non-agricultural use.
AR 8741. At the very least, this is a substantial issue
requiring further hearing. AR 8741.
The revised LUP also prohibits new vineyards
without substantiation, and without the beneﬁt of public comment. AR 8741. Petitioners included a survey of
existing vineyards in the general Malibu area. AR
8960. This survey states that there are 38 vineyards in
the area, most of which are less than two acres. AR
8960. There are some vineyards that are on a slope
greater than 33%. AR 8960-62.
e. The LUP Hearing
The Commission considered the LUP in a public
meeting on April 10, 2014. AR 9362-64. After Commission staff and County staff presented the LUP, the

App. 110
Commission heard from the public. AR 12955-13087.
Some speakers commented on the importance of restricting the expansion of agricultural uses or restricting them to organic practices, given the adverse effects
and strain on the scarce water supply in the Santa
Monica Mountains. AR 12986-87, 12994, 13014, 13021.
Counsel for Petitioners also addressed the Commission, and argued that certiﬁcation of the LUP was
premature because there were substantial issued that
the LUP was not in compliance with section 30242. AR
13046.
The Commission voted to approve the LUP with
the suggested modifications. AR 936364, 13056,
13085.
4. The LIP
a. LIP Report
On June 26, 2014, Commission staff issued a report on the County’s proposed LIP. AR 11067. The report recommended that the Commission reject the LIP
as presented, but certify it with minor modiﬁcations.
AR 11067.
The Commission staff ’s LIP Report acknowledged
that the proposed LIP did not reﬂect the revised LUP
policies approved by the Commission. AR 11093. Commission staff noted that LUP Policies CO-102 and LU11 require the use of organic or biodynamic farming
practices, and therefore speciﬁc implementation
measures must be added to the LIP to clarify this

App. 111
requirement. AR 11093. The LIP Report deﬁnes “organic farming” as “an environmentally sustainable
form of agriculture that relies on natural sources of nutrients . . . and natural sources of crop, weed, and pest
control without the use of synthetic substances.” AR
11093. “Biodynamic farming” is a subset of organic
farming, and reﬂects a “unique holistic ecosystem approach to crop production, in which lunar phases, planetary cycles, animal husbandry and unique soil
preparation practices are incorporated.” AR 11093.
The LIP, as modiﬁed, would allow new crop-based
agriculture uses only if organic or biodynamic farming
practices were followed. AR 11393. In order to qualify
as organic or biodynamic, the agriculture use must
comply with minimum best practices set forth in the
LIP. AR 11394-99. These best practices included a prohibition on the use of pesticides, rodenticides, fumigants, and other synthetic substances. AR 11394.
Integrated Pest Management techniques should be
used to prevent and control pests in a manner that
avoids harm to the soil and water. AR 11394. Only drip
irrigation or similar types of non-aeration irrigation
shall be used. AR 11395. If fencing is installed, only
wildlife permeable fencing shall be used. AR 11395.
Tillage practices shall be limited to those that maintain or improve the physical, chemical, and biological
conditions of the soil. AR 11395-96. Cultivation practices shall be limited to those that maintain or improve
the soil. AR 11396. Crop areas shall be designed utilizing the principles of low impact development. AR

App. 112
11396. Site development shall implement measures to
minimize runoff and transport of sediment. AR 11396.
b. Petitioners’ Objections
On July 7, 2014, Petitioners sented a letter to the
Commission objecting to the LIP Report. AR 11976.
Petitioners argued that the proposed LIP was inadequate to carry out the provisions of the LUP relating
to agriculture because it provided no deﬁnition of “biodynamic farming.” AR 11976, 11978. Petitioners argued that biodynamic farming as commonly deﬁned is
based on pseudoscience and astrology. AR 11977. Petitioners also contested the LIP’s ban on pesticides as
imprecise, as it did not specify whether the pesticides
banned must be synthetic. AR 11977.
c. The LIP Hearing
The Commission considered the LIP at its public
hearing on July 10, 2014. AR 9404. Its staff and the
County made presentations, and the public commented. AR 13088-119. The Commission voted to approve the LIP with proposed modiﬁcations. AR 13118.
5. The Certification
The County adopted the Commission’s proposed
modiﬁcations to the LCP. AR 9403-09. On August 26,
2014, following a public hearing, the County issued a
resolution adopting both the LUP and LIP portions of
the Santa Monica Mountains LCP, as modiﬁed by the

App. 113
Commission, and directing the transmittal of the approved LCP to the Commission for ﬁnal certiﬁcation.
AR 9405, 9408.
At the Commission’s meeting on October 10, 2014,
the Commission’s Executive Director reported the
County’s acceptance. AR 13120. The Commission certiﬁed the ﬁnal LCP on October 10, 2014. AR 13123.
E. Analysis
Petitioners argue that the Commission did not
proceed in the manner required by law by (1) failing to
provide the Addendum within the seven day minimum
notice period; (2) failing to provide a hearing on the
substantial issues identiﬁed by Petitioners; and (3) certifying the LCP with a preempted ban on pesticides.
Petitioners further argue that the Commission’s certiﬁcation of the LCP was not supported by substantial
evidence.
1. Late Addendum
The Coastal Act expressly recognizes that “the
public has a right to fully participate in decisions affecting coastal planning, conservation, and development; that achievement of sound coastal conservation
and development is dependent upon public understanding and support; and that the continuing planning and implementation of programs for coastal
conservation and development should include the widest opportunity for public participation.” §30006.

App. 114
During the preparation, approval, certiﬁcation, and
amendment of any local coastal program, the public . . .
shall be provided maximum opportunities to participate.” § 30503. To that end, state law requires the ﬁnal
staff recommendation to be distributed “within a reasonable time but in no event less than 7 calendar days
prior to the scheduled public hearing.” 14 CCR §13532.
The Staff Report for the proposed LUP was released on March 27, 2014. AR 1532. In the Staff Report,
largely recommended adopting the proposed LUP’s
categorical ban on new agricultural development in
the Santa Monica Mountains coastal region. AR 155758. Petitioners and other members of the public commented, arguing against the proposed ban. AR 1985
(Farmers Coalition), 2438-40 (Petitioners), 8730
(Hogrefe). Then, on April 9, 2014, one day before the
scheduled hearing, Commission staff released the Addendum, which addressed the arguments against a
new agriculture ban, recommending new Policy CO102/LU-11 permitting new agriculture (except vineyards) if it meets slope and “organic or biodynamic
farming” requirements. AR 1909.
Petitioners argue that the Addendum, not the
Staff Report, was the true “ﬁnal staff recommendation”. The ﬁnal report must be released at least seven
days before the Commission’s hearing. 14 CCR
§ 13532. Once the Commission, after consultation with
the County, settled on a ﬁnal set of criteria under
which new development would be permitted under the
LUP, the public should have been given a chance to analyze the new scheme and assess its conformity with

App. 115
the Coastal Act. Releasing the 176-page Addendum
with substantive changes just 24-hours before the
Commission’s hearing did not give the public maximum opportunity to participate as required by section
30503. The Commission hearing should have been continued to provide the full seven-day notice period. Pet.
Op. Br. at 7-8.
This argument ignores the law. Under pertinent
regulations, the Executive Director shall prepare a
staff recommendation of speciﬁc ﬁndings, including a
statement of facts and legal conclusions, for a proposed
LCP. 14 CCR § 13532. The March 27, 2014 Staff Report
supporting a categorical ban on new agricultural development was the ﬁnal staff recommendation meeting
this criteria. Members of the public are entitled to review and comment on a staff report, and the staff shall
respond to signiﬁcant comments, which may be included within the staff report and shall be available at
the Coastal Commission hearing for all persons in attendance, 14 CCR §13533. The Addendum constituted
the staff ’s response to the comments received concerning the ban on new agricultural development. The staff
changed its position on the ban, and recommended the
adoption of Policy CO-102/LU-11 if it meets slope and
“organic or biodynamic farming” requirements. AR
1909. This staff response and recommendation met the
requirements of 14 CCR section 13533, which only requires that it be “available at the hearing on the LCP
. . . for all persons in attendance.” As the Commission
points out, it would have been impossible for staff to
respond to comments any earlier than April 9, as

App. 116
Petitioners’ comments were not received until April 7
for a hearing on April 10, 2014. Opp. at 9-10. The Addendum directly addressed Petitioners’ complaints. Id.
The Commission relies on Ross, supra, 199
Cal.App.4th at 939. Opp. at 9-10. In that case, the staff
report had been available for 13 days, and the court
concluded that the public had adequate time to comment. Id. The court held that the addendum, issued
only two days before the hearing and containing responses to public comments, recommendations for
modiﬁcation of the view corridors in response to public
comments, and additional biological information speciﬁc to the subject property’s proposed subdivision, was
not subject to the notice requirement of 14 CCR section
13532. Id.
As the Commission asserts, Ross supports a conclusion that the Addendum was not subject to the
seven-day notice period because it was properly made
in response to comments under 14 CCR section 13533.
Opp. at 9. Petitioners argue that the changes in the Addendum were not minor, unlike the changes permitted
in Ross, and 14 CCR section 13532 does not permit the
ﬁnal staff recommendation to make the substantive
change of a complete reversal from an agricultural ban
to permitting agriculture under onerous conditions.
Reply at 2.
However, 14 CCR section 13533 does not contain
any restriction that the staff ’s responses to comments
about a proposed LCP cannot propose a change, or that
the proposed change must be “minor”. The regulation

App. 117
requires only that Commission staff respond to significant environmental points raised during evaluation of
the LCP and that the response may be included in the
staff report and must be available at the hearing. 14
CCR § 13533. It says nothing about additional time if
staff proposes substantive changes in the response to
comments. Ross’s holding does not alter this conclusion. Ross held only that the addendum was not subject
to the notice period of 14 CCR section 13532, and the
holding was not based on a ﬁnding that the changes
were minor and not signiﬁcant. See Ross, supra, 199
Cal.App.4th at 939.
The parties quibble over whether the staffs recommendation change from an agricultural ban to permitting new agriculture (except vineyards) with slope and
“organic or biodynamic farming” requirements is a major or minor change. Compare Pet, Op. Br, at 7 with
Opp. at 10-11. Assuming that the change was substantial, the Commission correctly relies on 14 CCR section
13356, which permits a local government to amend its
LUP after submission and prior to a Commission vote
if the amendment is minor or, if material, has been the
subject of adequate comment at the public hearing.
Opp. at 10. If a material change, the Addendum met
this standard because it was the subject of adequate
comment at hearing. Indeed, Petitioners were able to
submit a letter objecting to the Addendum’s suggested
modiﬁcations prior to the hearing (AR 8739), and also
appeared at the hearing through counsel to object in
person. AR 13046.

App. 118
Petitioners weakly contend that 14 CCR section
13356 does not apply because it concerns only changes
proposed by the local government (County), not Commission staff. Reply at 2. This is a meaningless distinction. The County proposed the LUP and the
Commission staff issued an initial Staff Report. After
consulting with the County, the Commission staff proposed the changes in the Addendum. These changes
were as much authored by the County as they were by
Commission staff. 14 CCR section 13356 does apply to
the Addendum.
Moreover, 14 CCR section 13356 merely incorporates a lack of prejudice requirement that would otherwise exist. In other words, even if Commission staff
violated a seven day notice requirement for the Addendum, the violation would not result in a legal remedy
unless prejudice resulted. Petitioners cannot show that
they were prejudiced by the Addendum’s timing; they
were able to prepare a written reply and argue against
the Addendum’s changes at the April 10, 2014 hearing.
In sum, the Commission was required to respond
to the points raised in Petitioners’ April 7, 2014 letter
prior to the April 10, 2014 hearing, and did so through
the issuance of the Addendum. The Addendum satisﬁes the procedural requirements of 14 CCR section
13533, and is not subject to the seven day notice requirement of 14 CCR section 13532. Additionally, 14
CCR section 13356 and the lack of any prejudice support the conclusion that Petitioners have no remedy.
The Commission properly proceeded with the hearing
on April 10, 2014.

App. 119
2. The Need for a Substantial Issues Hearing
The Coastal Commission was established to review local governments’ proposed LCPs for compliance
with the Coastal Act. Schneider v. Cal. Coastal Comm.,
(2006) 140 Cal.App.4th 1339. As part of this process,
the Commission must determine whether an LUP
raises any “substantial issue as to conformity with
Chapter 3” of the Act. §30512(a)(1). If the Commission
ﬁnds no “substantial issue,” the LUP will be deemed
certiﬁed as submitted and the Commission must adopt
ﬁndings to support its action. §30512(a)(1). Where
there are “substantial issues,” the Commission “shall
hold at least one public hearing on the matter or matters that have been identiﬁed as substantial issues. . . .” §30512(a)(3).
Petitioners argue that the Coastal Commission
was required by section 30512(a)(2) to hold a separate
hearing to address Petitioners’ claims that the proposed LUP, as modiﬁed by the Addendum, raised substantial issues as to the LUP’s compliance with the
Coastal Act’s agricultural policies, and the Commission abused its discretion by not considering those issues in a public hearing, or resolve them before
certifying the LUP. Pet. Op. Br. at 8.
The Commission argues that it was not required
to hold a hearing on any agricultural substantial issues raised by Petitioners because the Commission
was considering the proposed LUP an amendment to
the County’s certiﬁed 1986 LUP. AR 3. Section 30514
governs amendments to certiﬁed LCPs, and provides

App. 120
that the Commission shall comply with the procedures
and time limits in sections 30512 and 30513, “except
that the [C]omission shall make no determination as
to whether a proposed amendment raises a substantial
issue as to conformity with the policies of Chapter 3.”
§30514(b).
Petitioners argue that section 30514(b) is explained by section 30514(e), which indicates that an
“amendment of a certiﬁed local coastal program” includes, but is not limited to, “any action by a local government that authorizes the use of a parcel of land
other than a use that is designated in the certiﬁed local
coastal program. . . .” §30514(e). Petitioners conclude
that section 30514(b) applies when a local government
wants to accommodate a change in the use of particular land parcels, not where the local government is
seeking certiﬁcation of its LCP. As such, section
30514(b) only applies to minor changes to a certiﬁed
LCP, not its initial certiﬁcation. Reply at 3-4.
This is an issue of statutory interpretation. The
court must look to the language of the statute, attempting to give effect to plain meaning and seeking to
avoid making any language mere surplusage. Brown v.
Kelly Broadcasting Co., (1989) 48 Cal 3d 711, 724. Signiﬁcance, if possible, is attributed to every word,
phrase, sentence and part of an act in pursuance of the
legislative purpose. Orange County Employees Assn. v.
County of Orange, (1991) 234 Cal.App.3d 833, 841. The
various parts of a statute must be harmonized by considering each particular clause or section in the context of the statutory framework as a whole. Lungren v.

App. 121
Deukmejian, (1988) 45 Cal.3d 727, 735. Id. at 735. If
the statute is ambiguous, the Commission’s interpretation is entitled to deference. Ross v, California
Coastal Comm., supra, 199 Cal.App.4th at 938; Hines
v. California Coastal Comm., (2010) 186 Cal.App.4th
830, 849.
Petitioners’ argument is inconsistent with the
plain language of section 30514. Section 30514(e) expressly states that an amendment under section
30514(b) “includes, but is not limited to,” an action authorizing a new use of land. Thus, Petitioners are incorrect that Section 30514 applies only to minor
changes, as section 30514(e) is broader than that. It includes not just LCP amendments for speciﬁc parcel use
changes, but also an entire revision of an LCP.6 Section
30514(e) does not prevent the Commission from utilizing the amendment procedure set forth in section
30514(a).
The Commission was not required under the
Coastal Act to hold a separate hearing on any substantial issues alleged by Petitioners.7

6

Section 30514(e) also operates in conjunction with section
30515, which provides that a person authorized to undertake a
public works project may request a local government to amend a
certiﬁed LCP if the purpose of the amendment is to meet public
needs that had not been anticipated at the time the LCP was before the Commission for certiﬁcation. §30515.
7
Petitioners do not argue that section 30514(b) applies only
to amendments to a certified LCP, and the County only had a
certified LUP at the time of the April 10, 2014 Commission hearing. In any event, the Commission’s interpretation of section

App. 122
3. Preemption of Pesticides
Petitioners argue that the Commission did not
proceed in the manner required by law because it certified the LCP with a preempted ban on the use of
pesticides. State law expressly preempts local governments from “prohibit[ing] or in any way attempting]
to regulate any matter relating to the registration,
transportation, or use of pesticides.” Food & Agriculture (“F&A”) Code §11501.1(a). Any ordinance, law, or
regulation purporting to do so is void. Id. The Commission is not authorized to require that the County exercise power that it does not have under state law.
§30005.5. The County does not have the power to ban
pesticide use on private property in the coastal zone,
and therefore the Coastal Commission cannot give the
County this power in the certiﬁed LCP. Pet. Op. Br. at
12.
F&A Code section 11501.1(a) provides:
“This division and Division 7 are of statewide
concern and occupy the whole ﬁeld of regulation regarding the registration, sale, transportation, or use of pesticides to the exclusion of
all local regulation. Except as otherwise speciﬁcally provided in this code, no ordinance or
regulation of local government, may prohibit
or in any way attempt to regulate any matter
relating to the registration, transportation, or
use of pesticides, any of these ordinances,

30514(b)’s procedure as applying to an amendment to a certiﬁed
LUP is entitled to deference.

App. 123
laws or regulations are void and of no force or
effect.”
See also IT Corp. v. Solano County Board of Supervisors, (1991) 1 Cal.4th 81, 93, n. 9 (F&A Code scheme
regulating use of “economic poisons” (herbicides) occupies whole ﬁeld to exclusion of local regulation, and no
local ordinance or regulation may prohibit or regulate
their use in any way).
The Commission argues that F&A Code section
11501.1 is inapplicable because its language restricts
local governments and the Commission implemented
state law in certifying the LCP. Despite the fact that
the LCP was submitted by a local government, the
County acts only pursuant to authority delegated by
the Commission. In submitting the LCP, the County
was acting pursuant to authority delegated by the
Commission and it (the Commission) has the ultimate
authority to ensure that coastal development conforms
to the policies embodied in the Coastal Act. Pratt Construction Co. Inc. v. California Coastal Commission,
(2008) 162 Cal.App.4th 1068, 1075. Opp. at 13.
The problem with the Commission’s simple delegation argument is that runs expressly counter to section 30005.5, which prohibits the Commission from
requiring a local government to exercise power that it
does not already have under state law. §30005.5. The
County does not have the legal power to regulate pesticides. Thus, although the Commission has the power
to modify the LCP, the Commission may not delegate
this power to the County to justify a pesticide ban in

App. 124
the Santa Monica Mountains coastal zone in violation
of section 30005.5.
The Commission also argues that F&A Code section 11501.1 does not prevent it from including a pesticide ban in the Santa Monica Mountains LCP
because the statute expressly provides that it does not
limit the authority of a state agency to enforce or administer any law that the agency or department is authorized to enforce or administer. F&A Code § 11501
.1(c). The Commission is expressly authorized by the
Coastal Act to regulate land use in the coastal zone,
and to ensure that coastal development conforms to
the policies of the Coastal Act, §30330. In order to carry
out this function, the Commission is authorized to impose modiﬁcations on the speciﬁc land use restrictions
submitted by local governments to ensure that they
comply with the Coastal Act. §§ 30511, 30512. The
Coastal Act requires that the biological productivity
and quality of coastal waters be maintained. §30231.
The Commission found that the use of pesticides in the
Santa Monica Mountains coastal region would adversely impact the biological productivity of coastal
waters. AR 1910. Thus, the Commission asserts it was
authorized to impose the pesticide restriction as part
of certifying the LCP. Opp. at 14.
This argument fares better. The Commission does
not have the power to delegate to the County implementation of a ban on pesticide use in the coastal zone
(F&A Code §11501.1, §30005.5), unless it does so as a
function of its administration of the Coastal Act. The
Commission is authorized to administer the Coastal

App. 125
Act, and to regulate land use in the coastal zone.
§30330. The Commission may impose land use restrictions to ensure application of Chapter 3 policies.
§30512.2. The Commission found that a ban on the use
of pesticides in the Santa Monica Mountains coastal
region is necessary to avoid impacting the biological
productivity and quality of coastal waters. AR 1910. In
banning pesticide use in the certiﬁed LCP, the Commission is not compelling the County to exercise power
that it does not have under state law. Instead, the Commission is requiring a pesticide ban for the County’s
LCP, to be administered by the County, because the
Commission has the authority to do so as part of its
administration of the Coastal Act. F&A Code section
11501.1(c) permits the Commission to require the
County to conform to this ban in administering the
LCP.
The Commission did not fail to proceed in the
manner required by law by certifying the LCP with a
ban on pesticides.
4. Prime Farmland and Lands Suitable
for Agricultural Use
Petitioners argue that the Commission’s ﬁndings
that the region contains no Prime Agricultural lands,
and that non-prime land is not feasible for agricultural
use, are not supported by substantial evidence. Pet. Op.
Br. at 13-16.

App. 126
a. Public Policy Protection of Agricultural
Land
The Legislature has repeatedly noted that the
preservation of agricultural land uses in California is
an important public policy. §10201(c) (“Agricultural
lands near urban areas that are maintained in productive agricultural use are a signiﬁcant part of California’s agricultural heritage. . . . Conserving these lands
is necessary due to increasing development pressures
and the effects of urbanization on farmlands close to
cities.”); Govt. Code. §51220(a) (“ . . . the preservation
of a maximum amount of the limited supply of agricultural land is necessary to the conservation of the
state’s economic resources, and is necessary not only to
the maintenance of the agricultural economy of the
state, but also for the assurance of adequate, healthful
and nutritious food for future residents of this state
and nation.”); Civ. Code §815 (“ . . . the preservation of
land in its natural, scenic, agricultural, historical, forested, or open-space condition is among the most important environmental assets of California.”).
The Coastal Act expressly ﬁnds that “agricultural
lands located within the coastal zone contribute substantially to the state and national food supply and are
a vital part of the state’s economy.” §31050. The Act further declares that agricultural lands in the coastal
zone must be “protected from intrusion of nonagricultural uses, except where conversion to urban or other
uses is in the long-term public interest.” §§ 31050-51.

App. 127
b. Prime Agricultural Land
The Coastal Act’s Chapter 3 policies require that
“[t]he maximum amount of prime agricultural land
shall be maintained in agricultural production to assure the protection of the areas’ agricultural economy. . . .” §30241. The Coastal Act deﬁnes “prime
agricultural land” as land meeting the criteria of Government Code section 51201(c)(1)-(4). §30113. The four
prongs are as follows:
“(1) All land that qualiﬁes for rating as class
I or class II in the Natural Resources Conservation Service land use capability classiﬁcations;
(2) Land which qualiﬁes for rating 80
through 100 in the Stone Index Rating;
(3) Land which supports livestock used for
the production of food and ﬁber and which has
an annual carrying capacity equivalent to at
least one animal unit per acre as deﬁned by
the United States Department of Agriculture;
and
(4) Land planted with fruit or nut bearing
trees, vines, bushes, or crops which have a
nonbearing period of less than ﬁve years and
which will normally yield at least $200 per
acre annually from the production of unprocessed agricultural plant production.” Govt.
Code §51201(c).
The Commission acknowledged that sections
30241 requires that the maximum amount of prime agricultural land be maintained in production. AR 1618.

App. 128
The Commission found that prime agricultural land
represented less than 2% of the entire plan area, and
that the majority of these soils were contained within
existing public parkland areas or on an existing golf
course. AR 1618. The only areas meeting the deﬁnition
of prime farmland that were in agricultural production
were two very limited vineyard areas encompassing a
very small percentage of the plan area. AR 1619. Given
that the limited prime agricultural land within the
plan area was mostly either public parkland or developed with existing uses and not in agricultural production the Commission found that section 30241’s
mandate to maintain the maximum amount of prime
agricultural land in agricultural production did not apply to the Santa Monica Mountains coastal zone area.
AR 1620.
Petitioners argue that this ﬁnding was conclusory
and incorrect based on Petitioners’ knowledge of “at
least one property within Coastal Zone containing a
deed restriction indicating the presence of ‘prime agricultural land’ on that property.” Pet. Op. Br. at 14. Petitioners made this statement in their April 9, 2014
letter, but was unsupported by any identiﬁcation of the
property, property owner, or copy of the deed restriction. See AR 2440.
In contrast, the Commission Staff Report analyzed
the four prongs of the Government Code section
51201(c)(1)-(4) deﬁnition of prime agricultural land.
For the ﬁrst prong, the Commission found that there
were no NRCS Class I soils. For the second prong, the
Commission found very few NRCS Class II and 80-100

App. 129
Storie Index rated soils in the plan area. AR 1618. Of
those soils, none were currently in existing agricultural production. AR 1618. These soils are the basis for
the Commission’s determination that less than two
percent of the plan area consisted of prime land. AR
1618. For the third prong, the Commission found not
active cattle ranches or agricultural grazing grounds.
AR 1619. For the fourth prong, the Commission found
that steep topography and lack of suitable soils historically prevented agricultural use. There were two existing vineyards that met the productivity
requirement of the fourth prong, and those vineyards
were protected and allowed to continue under Policy
CO-102. AR 1619, 1909.
At least one of the studies submitted by Petitioners in support of their April 9, 2014 letter supports the
Commission’s ﬁnding that only 2% of the plan area is
prime agricultural land. The Soil Survey concluded
that about 3,470 acres, or less than 2% of the survey
area, would meet the requirements for prime farmland
if an adequate and dependable supply of irrigation water were available. AR 7568. Additionally, the Department of Conservation maps show that all of the “prime
farmland” within the plan area is contained within the
King Gillette Ranch, which is publically owned. AR
2126-27. All other “prime farmland” shown on the map
is outside the Coastal Zone. AR 2126.
The Commission’s ﬁnding that section 30241’s
mandate to maintain the maximum amount of prime
agricultural land in agricultural production did not apply to the Santa Monica Mountains coastal zone area

App. 130
is supported by all of the evidence in the record, not
just substantial evidence.
c. Land Suitable for Agricultural Use
In addition to prime agricultural land, the Coastal
Act also protects lands suitable for agricultural use:
“All other lands suitable for agricultural
use shall not be converted to nonagricultural
uses unless (1) continued or renewed agricultural use is not feasible, or (2) such conversion
would preserve prime agricultural land or
concentrate development consistent with
[s]ection 30250. Any such permitted conversion shall be compatible with continued agricultural use on surrounding lands.” §30242.8
Petitioners argue that the Commission failed to
support its ﬁndings that the majority of the land in the
Santa Monica Mountains coastal zone is unsuitable for
agricultural uses. Pet. Op. Br. at 14. The Commission
found that “the conﬂuence of factors—including steep
topography, poor soils, scenic considerations, sensitive
waterlands, abundant ESHA, and lot size limitations—render the vast majority of the land in the
Santa Monica Mountains unsuitable for agricultural
uses.” AR 1537. The Commission also found that there
8

“The use of private lands suitable for visitor-serving commercial recreational facilities designed to enhance public opportunities for coastal recreation shall have priority over private
residential, general industrial, or general commercial development, but not over agriculture or coastal dependent industry.”
§30222.

App. 131
are no land in the plan area where agriculture is even
possible other than the “one or two areas that are already in active agricultural production.” AR 1620. Petitioners describe these ﬁndings as unsupported by
any information regarding the amount of land within
the plan area that is currently under cultivation, or explain why no other land is suitable for agriculture. Petitioners argue that the Commission’s ﬁndings ignore
evidence that crop-based agriculture, including vineyards, already exist in the plan area. AR 8960-62. Pet.
Op. Br. at 14-15.
Petitioners point to a memorandum by Koutnik,
an expert in biology and environmental planning,
which states that the Staff Report’s dismissal of agricultural uses based on the soil type and slope does not
correspond to current successful agricultural operations in the area. AR 7267. With modern agricultural
practices to address water quality and erosion issues,
various agricultural uses may be successful. To limit
agricultural uses to those based on soil types or recent
or current operation while prohibiting such uses for
properties that have been historically used for such
practices is a substantial change. AR 7267. Petitioners
also provided a statement by Hogrefe, a consulting geologist, who opined that the vast majority of sites
across the Santa Monica Mountains do contain good to
excellent soil conditions for agricultural purposes. AR
8730. Although the land does not meet the criteria for
prime agricultural land, Petitioners assert that it is
still suitable for agriculture, and that agriculture is
feasible in those areas. Pet. Op. Br. at 14-15.

App. 132
As the Commission correctly points out, there is
ample evidence that the Santa Monica Mountains
coastal region is replete with steep topography, poor
soils, abundant ESHA, sensitive watersheds, scenic
considerations, and lot size limitations that render the
vast majority of the land unusable for agriculture. Opp.
at 18 (citations omitted). The Staff Report discussed
the various factors that made the plan area generally
unsuitable for agriculture. AR 1618-23. The Staff Report discussed the current state of agricultural uses in
the plan area, ﬁnding that the two commercially viable
vineyards only encompass about 50 acres, and the remaining vineyards are less than 2 acres each. AR 1619.
The Biota Report discussed the steep slopes (AR 587),
lack of water (AR 600) and abundant ESHA factors
(AR 631-38) in the plan area. The Signiﬁcant Watersheds Report describes the large number of watersheds in the plan area, all of which lead to the ocean.
AR 727. The Signiﬁcant Ridgelines Report discusses
the steep topography and scenic considerations. AR
751-62. Thus, while there is not a map showing vineyard locations, there is substantial evidence that there
are only two commercial vineyards and a number of
hobby vineyards that are too small to be commercially
viable. There is also evidence that the rest of the plan
area is simply not suitable for agriculture.
Because the Commission found the remaining
land not suitable, it did not need to address whether
that land was feasible for renewed or continued agricultural use. Nor do Petitioners’ experts demonstrate
that the land in the plan area is actually suitable or

App. 133
feasible for agricultural uses. “Feasible” is deﬁned as
“capable of being accomplished in a successful manner
within a reasonable period of time, taking into account
economic, environmental, social, and technological factors.” §30108. Koutnick only states that, despite the
rocky soil and steep slopes, agricultural uses “may be
successful.” AR 7267. Hogrefe similarly states that the
soils and topography would “allow” agricultural uses.
AR 8734. The mere possibility of successful agricultural use is not sufﬁcient to ﬁnd that land is suitable
for agriculture, or that agricultural uses are feasible.
§30108. See Opp. at 19.
Moreover, feasibility requires an evaluation of environmental, social, and economic factors. The record
contains evidence that agricultural uses would negatively impact the Santa Monica Mountains plan area.
The Staff Report found that the combination of the
relatively steep mountain topography in the plan
area, vegetation removal, increased soil exposure, and
chemical/fertilizer and irrigation requirements from
crop-based agriculture can result in signiﬁcant impacts to biological resources and water quality from increased erosion, sedimentation of streams, pollution,
slope instability, and loss of habitat. AR 1623. New or
expanded agricultural uses would further strain already limited water availability. AR 1623. Heal the Bay
submitted a comment stating that vineyards in the
plan area use excessive water, and the sediment from
vineyards on steep slopes impacts pools of water that
form habitats for amphibian species. AR 1936. These
potential adverse effects further support the

App. 134
Commission’s decision that agricultural uses were not
suitable or feasible in the plan area.
Added to this is the fact that very little of the
Santa Monica Mountains plan area can be used for
anything other than ESHA. The Biota Report acknowledged that, for the past decade, the Commission has
delineated nearly all undeveloped land in the Santa
Monica Mountains coastal zone as ESHA. AR 583. After performing a comprehensive analysis of the biodiversity in the Santa Monica Mountains, the Biota
Report determined that only “roughly 6,000 acres . . .
in the Study Area satisfy the ESHA criteria in Section
30107.5.” AR 583. In addition to the ESHA designation,
the Biota Report proposed two additional resource-protection designations: (1) “stewardship habitat", meaning areas that are not ESHA but still provide high
ecological value; and (2) “restoration habitat", meaning
habitat that likely satisﬁed ESHA criteria in the past,
but is periodically disturbed for authorized or mandated activities such as ﬁre and ﬂood control. AR 583.
Petitioners ignore the requirement for ESHA and
ESHA-related protection, but feasibility requires consideration of these factors. Even though the Coastal
Act requires protection of agricultural lands in the
coastal zone (§§ 31050-51), any conﬂict between that
protection and protection of ESHA, the conﬂict must
be resolved in favor protecting coastal resources.
§30007.5.
Finally, Petitioners’ argument ignores the language of section 30242 that lands suitable for agricultural use shall not be converted to nonagricultural

App. 135
uses absent certain conditions. This plain language
means that suitable lands that are feasible for “continued or renewed agricultural use” cannot be used for
another purpose. It does not mean that all land suitable for agriculture must be used for agriculture. Petitioners make no showing that any lands recently or
historically used for agriculture have been converted
to a non-agricultural use. It is not enough for Hogrefe
to say that the Santa Monica Mountains contain soil
sites that could be used for agriculture, or for Koutnik
to say that the Santa Monica Mountains has been
zoned for agricultural use for nearly 100 years, without
evidence that any property has been historically used
for agriculture during that period. AR 7266-67. The
LCP does protect existing agricultural uses (AR 1620),
and also permits new agriculture restricted to protect
coastal resources. There simply is no evidence that the
LCP converts to a non-agricultural use any land that
actually has been used for agricultural anytime within
the past 100 years.
Petitioners argue that the Coastal Act protects agricultural land from intrusion. §31051. Petitioners also
cite the Williamson Act which found that “preservation
of the maximum amount of the limited supply of agricultural land is necessary to the conservation of the
state’s economic resources. . . .” Petitioners contend
that these provisions include a protection against taking agricultural land out of potential production. Reply
at 5. If Petitioners contend that land zoned for agriculture but never used for that purpose is protected, that
argument is inconsistent with section 30242’s

App. 136
requirement of the conversion to non-agricultural use
from a “continued or renewed agricultural use”.
Substantial evidence supports the Commission’s
ﬁndings that a large percentage of the plan area is not
suitable for agricultural use and not subject to section
30242’s restriction on the conversion of lands suitable
for agricultural use.
5. Restriction on Vineyards
The LCP permits continued agricultural use of
the existing prime agricultural land and of the small
amount of existing land that is suitable for agricultural use. AR 1620. The Commission, however, imposed
restrictions on new, and the expansion of existing, agriculture to protect marine, life, water quality, ESHA,
and scenic considerations in revised Policy CO-102/
LU-11. AR 1909. The Commission also prohibited new
vineyards. Id.
Petitioners that the Commission’s decision to exclude vineyards from the revised Policy CO-102/LU-11
is not supported by substantial evidence. The Addendum based its ban on vineyard on water scarcity and
did not cite to any evidence in support of the exclusion
of vineyards. AR 1906-17. Nor do any of the studies in
support of the LCP relate to agriculture generally, or
vineyards in particular. Petitioners argue that the ban
on vineyards is unsupported by anything, more than
mere conclusions and its ﬁndings are merely a post-hoc
rationalization. Pet. Op. Br. at 17-18.

App. 137
As Commission correctly points out, the fact that
the studies in the LCP’s Technical Index do not specifically address agriculture does not mean that the Commission may not rely on the data from those studies in
restricting agriculture use in the LCP. Opp. at 21. The
Commission is, entitled to rely on any evidence before
it in making its ﬁndings. This includes evidence and
analysis by its staff. See Coastal Southwest Dev. Corp.
v. California Coastal Comm., (1976) 55 Cal.App.3d 525,
535-36 (staff report orally presented at hearing constitutes substantial evidence).
The Addendum stated that new vineyards would
be prohibited because vineyards require the removal of
all native vegetation and the soils must be scariﬁed,
which results in increased erosion and sedimentation.
AR 1910. In addition, vineyards require the use of pesticides, which adversely affect coast streams and riparian habitat. AR 1910. Vineyards require large amounts
of water, which can adversely affect ground water and
streams. AR 1910. Grapevines can be an invasive type
of vegetation in riparian areas. AR 1911. Finally,
grapevines require trellises, which can adversely impact scenic views. AR 1911.
As already discussed, the Biota Report provides
evidence of steep slopes, abundant ESHA, and water
scarcity. AR 587 (80% of the land in the plan area is on
slopes greater than 25%); 631-38 (describing the abundant ESHA found in the plan area); 600 (“scarce water
in an arid environment”). The Signiﬁcant Watersheds
study and the Signiﬁcant Ridgelines study provide
support for the Commission’s ﬁndings of sensitive

App. 138
watersheds and scenic considerations. AR 725-34, 75157. The Staff Report contains speciﬁc ﬁndings on water
scarcity, stating that water availability is limited for
irrigation purposes, making additional cultivation of
vineyards extremely difﬁcult. AR 1620.
One commenter, Heal the Bay, speciﬁcally identiﬁed vineyards as being harmful to sensitive habitats
due to water use, sediment inputs, and polluted runoff.
AR 1936: Heal the Bay has directly observed the impacts of nearby vineyards on amphibian habitats in
the Santa Monica Mountains. AR 1936. Waters downstream from vineyards show increased nutrient levels
as compared to equivalent sites in open space. AR
1938. These nutrients can negatively impact the biological health of the streams. AR 1938.
Although the Petitioners are correct that no technical study in the record discusses the impact of vineyards and whether new vineyards should be banned in
the LCP, the Commission was nonetheless entitled to
rely on all of this evidence in concluding that vineyards
present a particular danger to coastal resources. It is
immaterial whether the ﬁnding that the plan area has
a water shortage comes from the Biota Report or from
an agriculture-speciﬁc report. The Commission need
only demonstrate that there is evidence in the record
sufﬁcient to demonstrate that a reasonable person
would reach the same conclusion as it did.
The Commission’s decision to prevent any new
vineyards within the plan area is supported by substantial evidence.

App. 139
6. The LIP
Finally, the Petitioners argue that the Commission
erred in certifying the LUP because it contained the
phrase “organic or biodynamic farming practices”
which was not deﬁned. Speciﬁcally, the Addendum’s revision to Policy CO-102/LU-11 provides that new agricultural uses are limited to those that follow organic or
biodynamic farming practices. AR 1909. However, the
Addendum does not deﬁne these terms and provides
no rationale why such practices should be required. AR
1906-18. The Commission then admitted that these
terms were undeﬁned in the LUP, and provided deﬁnitions in the LIP. AR 11093. Petitioners argue that the
Commission lacked the necessary information on the
record to certify the LUP on April 10, 2014. Pet. Op. Br.
at 18-19.
An LUP is the relevant portion of a local government’s general plan or local coastal element, and must
be “sufﬁciently detailed to indicate the kinds, location,
and intensity of land uses, the applicable resource protection and development policies. . . .” §30108.5. An
LUP need not spell out or deﬁne in detail every term
used or every speciﬁc method of implementation. This
is left to the LIP, which is made up of the “detailed zoning or implementing ordinances designed to carry out
the more general policies of the approved Land Use
Plan.” AR 11067.
The Commission argues that the LUP was sufﬁciently detailed because the Addendum stated that organic and biodynamic farming practices are required

App. 140
to prevent the use of pesticides, herbicides, and fertilizers, which can adversely impact the biological
productivity of coastal waters and human health. AR
1910. Thus, the Commission claims that the Addendum deﬁnes organic and biodynamic farming as farming practices that do not use pesticides, Opp. at 23. The
LIP merely elaborates on this deﬁnition by deﬁning
“organic farming” as “an environmentally sustainable
form of agriculture that relies on natural sources of nutrients (compost, cover crops, and manure) and natural
sources of crop, weed, and pest control without the use
of synthetic substances.” AR 11093. “Biodynamic farming” is deﬁned as a “subset of organic farming” that reﬂects a “unique holistic, ecosystem approach to crop
production.” AR 11093. Thus, the Commission contends that the LUP properly ﬁlled up the detail of the
LUP’s meaning of these terms.
There is little doubt that Petitioners are correct
that the LUP’s imposition of “Organic or Biodynamic
farming practices” on new private and commercial agricultural uses of plan area is vague. “Organic” is a
term commonly bandied about in the media and in advertising to such an extent that it is almost meaningless. All farming is, by deﬁnition, organic. Farmers
grow crops, and crops are “organic.” The term “biodynamic farming” also sounds like New Age babble, and
at a minimum is not self-deﬁned. There is truth to Petitioners’ complaint that these requirements smell of
New Age pseudoscience and astrology. See AR 11977.
And they are certainly vague.

App. 141
The LIP deﬁnes “organic farming” as an “environmentally sustainable form of agriculture” (again more
babble), but also explaining that this means farming
that relies on compost and manure rather than “synthetic substances” (pesticides, herbicides, and chemical
fertilizers). AR 11093. Although it could have been
clearer, this description of organic farming essentially
is “farming without pesticides; herbicides, or chemical
fertilizers”, and Petitioners do not argue that it is
vague.
The LIP deﬁnes “biodynamic farming as a subset
of organic farming involving a “holistic approach to
crop production, in which the moon, planets, “animal
husbandry and unique soil preparation practices are
incorporated.” AR 11093. This deﬁnition remains obviously vague. However, the LIP also states that Section
22.44.1300 of Attachment A addresses basic farming
measures that should be followed that address the use
of compost/manure, pest management, irrigation and
water conservation, tillage and cultivation, waste management, and water quality protection measures. AR
11093-94. The court does not have Section 22.44.1300
before it, but it appears to address speciﬁc requirements for farming practice and not suffer from any
vagueness. Petitioners do not disagree, and only argue
that this deﬁnition should have been deﬁned in the
LUP. Pet. Op. Br. at 18-19. As the Commission argues,
the LUP is a general plan and can be supplemented
with more detail by the LIP. See Reply at 8. The LIP
cures the vagueness defects in the LUP, and it was
proper to do so.

App. 142
Petitioners also argue that, even if these terms are
properly deﬁned in the LIP, the Addendum is insufﬁcient because it does not explain why the practices are
necessary. Reply at 9. The Addendum provides that
small-scale agricultural operations (except vineyards)
can avoid impacts to biological resources and water
quality if limited to slopes of 3:1 or less in H2 and H3
habitat and organic or biodynamic farming practices
are followed. AR 1910. These practices are necessary to
prevent the use of pesticides, herbicides, and fertilizers, which can affect the animal life in coastal waters
and human health. AR 1910. This a sufﬁcient explanation for the requirement of organic farming, and biodynamic farming is merely a subset of organic farming.
The Commission did not err in approving the LUP
prior to the development of the detailed deﬁnitions of
organic and biodynamic farming in the LIP.
F. Conclusion
The petition for writ of mandate is denied. The
Commission’s counsel is ordered to prepare a proposed
judgment and a writ, serve it on Respondent’s counsel
for approval as to form, wait ten days after service for
any objections, meet and confer if there are objections,
and then submit the proposed judgment along with a
declaration stating the existence/non-existence of any
unresolved objections. An OSC re: judgment is set for
September 26, 2017 at 1:30 p.m.

App. 143
Court of Appeal. Second Appellate District,
Division Eight – No. B287079
S262700
IN THE SUPREME COURT OF CALIFORNIA
En Banc
[Filed: Jul. 15, 2020]
MOUNTAINLANDS CONSERVANCY, LLC, et al.,
Plaintiffs and Appellants,
v.
CALIFORNIA COASTAL COMMISSION,
Defendant and Respondent;
COUNTY OF LOS ANGELES,
Real Party in Interest and Respondent.
The petition for review is denied.
CANTIL-SAKAUYE
Chief Justice

